<html>
<title> - THE AMERICANS WITH DISABILITIES ACT AT 22: A NEW GENERATION OF IOWANS APPROACHES THE LABOR FORCE WITH HIGH EXPECTATIONS</title>
<body><pre>[Senate Hearing 112-926]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-926

 THE AMERICANS WITH DISABILITIES ACT AT 22: A NEW GENERATION OF IOWANS 
           APPROACHES THE LABOR FORCE WITH HIGH EXPECTATIONS
=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,

                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE AMERICANS WITH DISABILITIES ACT AT 22, FOCUSING ON A NEW 
 GENERATION OF IOWANS AND THEIR HIGH EXPECTATIONS AS THEY APPROACH THE 
                              LABOR FORCE

                               __________

                    JULY 13, 2012 (Cedar Rapids, IA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PUBLISHING OFFICE
93-425                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
RICHARD BLUMENTHAL, Connecticut

                                     MICHAEL B. ENZI, Wyoming
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     JOHN McCAIN, Arizona
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                       

              Pamela Smith, Staff Director, Chief Counsel

                 Lauren McFerran, Deputy Staff Director

              Frank Macchiarola, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                         FRIDAY, JULY 13, 2012

                                                                   Page

                            Committee Member

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1

                           Witnesses--Panel I

Mitchell, David L., MS, CRC, Administrator, Iowa Vocational 
  Rehabilitation Services, Des Moines, IA........................     4
    Prepared statement...........................................     7
Shults, Rick, Mental Health and Disability Services Division 
  Administrator, Iowa Department of Human Services, Des Moines, 
  IA.............................................................    12
    Prepared statement...........................................    16

                          Witnesses--Panel II

Frank, Ron, Manager, Walgreens, Cedar Rapids, IA.................    20
    Prepared statement...........................................    22
Hillman, Emilea, Independence, IA................................    25
    Prepared statement...........................................    25
Trainor, Nate, Waverly, IA.......................................    28
    Prepared statement...........................................    29
Watters, Alex, Milford, IA.......................................    35
    Prepared statement...........................................    38

                                 (iii)



 
 THE AMERICANS WITH DISABILITIES ACT AT 22: A NEW GENERATION OF IOWANS 
           APPROACHES THE LABOR FORCE WITH HIGH EXPECTATIONS

                              ----------                              


                         FRIDAY, JULY 13, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                  Cedar Rapids, IA.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Iowa Hall, Rooms B, C, and D, Kirkwood Community College, Hon. 
Tom Harkin, chairman of the committee, presiding.
    Present: Senator Harkin.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    The title of this hearing is ``The Americans with 
Disabilities Act at 22: A New Generation of Iowans Approaches 
the Labor Force with High Expectations.''
    I might just add at the outset this is an official meeting 
of the Senate Committee that I chair, and that's why we have a 
court reporter here to take things down.
    Later this month, on July 26, in celebrations across Iowa 
and across the United States, the anniversary of the signing of 
the Americans with Disabilities Act will take place. Thanks to 
the ADA and other civil rights laws, Iowans with disabilities 
have far greater opportunities to participate in the workplace 
and in the life of our communities.
    I was honored to be the Senate sponsor of the ADA during my 
first term in the Senate, work that was inspired by my older 
brother, Frank, who became deaf as a child, but he refused to 
settle for the low expectations of some of the professionals 
who told him that his job options in life were limited, that he 
could be a baker, a cobbler, or a printer's assistant, and that 
was it.
    But during Frank's lifetime--he is now deceased--I saw 
firsthand how communications access improved for him and 
hundreds of thousands of deaf and hard-of-hearing people thanks 
to the ADA and other laws, such as IDEA, the Rehab Act, and 
others.
    Today's hearing is an opportunity to learn about the hopes 
and dreams of what I now call the ADA generation, a diverse 
group of youth and young adults with disabilities who have 
grown up with opportunities for equality and integration 
created under the civil rights laws like the ADA and IDEA and 
the Rehab Act. In my experience from working closely with the 
disability community for decades, from chairing hearings in 
Washington, DC where young adults with disabilities have 
testified, and from the many interns with disabilities who have 
worked in my office, I'm very excited about what the future 
holds for this ADA generation.
    They have grown up in an America that gives them realistic 
expectations of full participation, equal opportunity, 
independent living, and economic self-sufficiency; the four 
pillars of the ADA. These young people are truly helping to 
redefine what is possible for people with disabilities to 
achieve in education, in employment, in all facets of American 
life.
    I know also that this ADA generation has high expectations 
for themselves, especially about what they can aspire to do in 
their careers. The vast majority of youth and young adults with 
disabilities do not want to drop out of high school, or 
graduate from high school or college and then retire into a 
lifetime of supplemental security income. They want to work in 
competitive, integrated settings. They want to achieve economic 
self-sufficiency, and given opportunities and appropriate 
supports, the vast majority aspire to find meaningful work, to 
be a part of the middle class, with the same hopes and dreams 
as other Americans.
    Today we're going to hear from three remarkable young 
Iowans I call the ADA generation, Emilea Hillman, Nate Trainor 
and Alex Watters, each of whom has translated their personal 
high expectations into promising employment in integrated 
settings that is consistent with their interests and their life 
goals.
    Then we'll hear from a store manager at the Cedar Rapids 
Walgreens who will talk about that company's experience in 
building partnerships and pipelines that are helping youth and 
adults with disabilities become an integrated part of the labor 
force.
    We'll hear from leaders of two critical Iowa agencies, the 
Division of Vocational Rehabilitation and the Division of 
Mental Health and Disability Services, about what their 
agencies are doing to invest in this ADA generation to help 
them achieve their goals.
    I just might say, before I close, that we think about the 
impact of the ADA locally in terms of our State, and local 
communities. But that Act inspired a movement around the globe 
in terms of other countries looking at what they need to do. 
This culminated several years ago in the United Nations 
drafting a convention, which is a treaty, on the rights of 
people with disabilities. Well, the U.N. takes a long time to 
do things. It took them several years to get it done, and then 
they put it out for ratification by member nations.
    One-hundred and sixteen nations have signed on to it now, 
plus the European Union. Yesterday I was honored to testify 
with Senator John McCain and others before the Senate Foreign 
Relations Committee, because under our laws, a treaty like that 
is first sent to the White House. The White House then has to 
send it out to the Justice Department and all these other 
places to make sure it's OK, and that takes a couple of years. 
Finally, it came back. President Obama sent it down to us a 
couple of months ago. The Foreign Relations Committee had a 
hearing on it yesterday, at which I testified, and I hope that 
this convention will be reported out and we'll get it on the 
floor and pass it. We need a two-thirds vote to pass it and we 
hope to do so before July 26, our 22d anniversary.
    I say that because here we are; what we did in this 
country, again going all the way back to other things like IDEA 
and the Rehab Act, and then ADA, others like that. We really 
did spark a global movement in this area. So here we are, we 
should be the leaders in the world and we should ratify this 
convention so that when other countries now, when they sign on, 
they've got to change their laws and change things so that they 
are under the provisions of this treaty. They have to be in 
compliance with it. We don't have to do anything. We are in 
full compliance. We don't have to change anything.
    But as these other countries start to work to get in 
compliance, we should be at the table with them providing the 
leadership, the guidance, and the direction, and that's why 
it's so important for us to do that.
    Now, the other reason I mention it is because when we think 
of young people, like the young people here today, as being 
part of the American workforce in the future, but there's going 
to be a global workforce out there too, and there's going to be 
a global workforce of young people with disabilities in other 
countries who also have high expectations, who no longer are 
going to just be shunted aside and put in the shadows.
    This whole thing has taken on a great life. Not only do 
young people with disabilities have to be in this labor force, 
they're going to be part of a global labor force around the 
globe. So in one way it's very encouraging that America has 
inspired the rest of the world this way. It's also kind of 
daunting to think about what we need to do to maintain our 
leadership in this area, and that's sort of a little bit of 
what this hearing is about.
    What are we doing, and what should we be doing, to maintain 
that position of providing opportunities? I just looked at USA 
Today, and there's a story in here about the unemployment rate 
for teens is 24.6 percent, young adults age 20 to 24 is 13.7 
percent. Among teens and young adults with disabilities, it's 
about three times that much. They're talking about 60-something 
percent. So as we begin to increase, I hope, and regain our 
employment opportunities in America, we make sure that people 
with disabilities are brought in also.
    Andrew Imperato just gave me a note here and said there are 
three people here that go back a long ways who helped with the 
passage of the ADA back in the 1980s, late 1980s, up to 1990, 
and at the risk of leaving somebody out I will recognize Julie 
Beckett, who is here, and Evelyne Villines. Where is Evelyne? 
Oh, Evelyne is right here, Evelyne Villines, and Sylvia Piper. 
Sylvia is back there.
    [Applause.]
    Thank you all very much.
    We go back a long way. They were all inspirational hard 
workers in getting the ADA passed.
    Now I'd like to introduce our first panel. After their 
statements we'll go to our second panel.
    Our first witness is going to be David Mitchell. He is 
currently the administrator for Iowa Voc Rehab Services. He has 
been with IVRS for 12 years, served in a variety of supervisory 
roles before becoming administrator last year. Prior to joining 
IVRS, he worked in rehabilitation services in central Iowa for 
nearly 20 years in both the public and private sectors. He 
holds a Bachelor of Science degree from Iowa State University 
and a Master of Science Degree from Drake University.
    Next, joining Mr. Mitchell on our first panel, is Rick 
Shults. Mr. Shults is the Mental Health and Disability Services 
Division administrator for the Iowa Department of Human 
Services. He previously served as the director of Mental Health 
Services for the Kansas Department of Social and Rehabilitation 
Services and has worked in a variety of administrative and 
management roles for programs serving people with developmental 
disabilities and mental health needs over the past 36 years. He 
has a Bachelor's degree from the University of Oregon and an 
MBA from Pepperdine University.
    As an official hearing, I read over your statements as I 
was flying out here last night. They're very good. All your 
statements will be made a part of the record in their entirety. 
I would ask if you could maybe sum up in several minutes what 
points you want to make, and then we can have a discussion. So 
we'll do the first panel.
    I know one of you has to leave because you have to get back 
to Des Moines.
    So we'll start with you, David. Welcome, and please proceed 
as you so desire.

 STATEMENT OF DAVID L. MITCHELL, MS, CRC, ADMINISTRATOR, IOWA 
       VOCATIONAL REHABILITATION SERVICES, DES MOINES, IA

    Mr. Mitchell. Thank you very much, Senator. We really 
appreciate the opportunity to make a few comments regarding the 
ADA and its historic impact as a landmark piece of legislation.
    I certainly agree with your comments about the progress 
that's been made with improving access to the physical 
environment, access to information, access to assistive 
technology resources. But we also recognize we still have work 
to do as we look at the promise and the hope that the ADA has 
with the field of employment.
    Taking one of your challenges from last year, I went out 
this time and met with our 13 area offices, met with over 200 
of our rehabilitation field staff, and shared a little bit of 
the ADA story and the fact that people with disabilities are 
still challenged to get into competitive, integrated, community 
employment. If we have approximately 4.5 million people with 
disabilities into the labor market, and our goal is to move 
that to 6 million by 2015, what are we going to do as a State 
agency to move that forward?
    I think we're going to hear a little bit later today from 
our young adults, and I think we'll be impressed by their 
persistence and their passion and their energy. We'll also be 
impressed by their advocacy and their personal support systems. 
I think we recognize as service professionals that not all 
individuals have those support systems, and we need to do 
better to fill those gaps to allow everybody to have 
opportunities to compete in the labor market.
    There are challenges that we face, and I know as an agency 
we've had a shrinking budget. We're about 9.5 percent less than 
we were in 2009. We have hiring freezes on staff capacity. We 
have struggles with competing pieces of legislation, and we 
need support for programs that complement our services, like 
benefits planning with the Social Security Administration.
    But with those challenges come tremendous opportunities 
that we have, and I'd like to just take a few minutes to 
highlight seven pockets of excellence that we think we're 
pushing forward. We can't do this in isolation. We do it with 
partnering and collaboration and networking with our other 
community resources and providers, and we really are excited 
about the opportunities we have lying ahead.
    One of the little phrases that has kind of come together as 
we've met with partners is ``the stars are aligning,'' and 
we're going to be able to push forward with the momentum that 
the ADA has had in the last 22 years to create the next 22 
years to really focus on employment for people with 
disabilities and our youth.
    So, seven quick highlights.
    No. 1, youth leadership. We co-sponsor, with the Iowa 
Department for the Blind and the Iowa Department of Human 
Rights, a youth leadership forum, and in that forum young 
adults that are in the secondary and post-secondary school 
system can come together to look at advocacy, self-sufficiency, 
independent living skills, and begin to address their interests 
and preferences for the world of work, and this is really the 
foundation for what is going to come in future years for the 
youth.
    No. 2, the Collaborative Transition Protocol. This is a 
partnership that we have with the Iowa Department of Education 
and individual school districts. The Iowa Department of 
Education has taken a stance with a response to intervention 
method, which really looks at young adults focused on their 
strengths, their interests, their preferences, and not focused 
on a disability label. So as we move forward with VR, we've 
been able to look at targeted groups of individuals who really 
focus on their strengths and their interests, moving away from 
the perceptions that come with the label, and we're excited 
about how that's being implemented across the State of Iowa.
    No. 3, Transition Alliance programs and Project Search. Our 
Transition Alliance programs, we have six of them in the State 
of Iowa. Again, this is a partnership with the State Department 
of Education and school districts where we're leveraging 
resources to increase staff capacity to provide work-based 
experiences for kids in the secondary school system. We know 
from our studies that individuals who get work experience, and 
where those work experiences occur out in the community, have a 
better opportunity for future success. So this is an 
opportunity that we've had to leverage resources and partner 
together, and we're excited about that, and we're trying to 
push forward and expand that program.
    Project Search is a nationally recognized program that 
really coordinates classroom activities with the world of work, 
and we have two programs we're excited about. One is in our 
northern Iowa Mason City area that's really taken on by the 
leadership of one of our community partners, the North Iowa 
Vocational Center. Through their leadership, we've worked with 
the local hospital and the Mason City school district to give 
young people chances to get out in the world of work and 
experience what it's really like.
    We're starting a new program in Des Moines with Easter 
Seals Center and with the Des Moines School District and Mercy 
Hospital. Again, this is a chance to integrate school 
curriculum with the needs and skills that are required by our 
business partners, and we think this will be a real opportunity 
to expand work experience.
    No. 4, staffing agencies. We've had a unique opportunity 
this past year to work with staffing agencies, and in 
particular manpower staffing. This has been kind of a closed 
door to vocational rehabilitation. We haven't really looked at 
this as an opportunity in the past, but staffing agencies have 
a viable role as they meet business needs. So we've been able 
to expand their awareness of disability awareness needs, as 
well as talking about a whole different diverse pool of 
qualified work applicants, and we're hoping that this will be 
able to expand opportunities for people to get into companies 
that typically have had closed doors.
    No. 5, entrepreneurship, the whole idea of self-employment 
as an informed choice option. We have three business 
specialists that work with our adults with disabilities, and 
you'll hear from Em a little bit later too, again, and her 
personal story and the advocacy and support she's had. But 
these business specialists were involved with 55 new business 
startups for 2012, and 172 in the last 4 years, and we're going 
to continue to grow and expand that.
    No. 6, Employment First. Through the Office of Disability 
and Economic Policy, Iowa is one of three States that receives 
special funding to move the whole concept of what we're looking 
at with integrated, community-based, competitive employment in 
the State of Iowa. We're partnering with multiple partners 
across the State to really look at that, and one of our 
partners is the Department of Human Services. We're looking at 
funding and rate realignment and how that needs to be done to 
support individuals with the most significant disabilities. 
We're looking at six pilot projects that will look at 
customized employment strategies that will hopefully provide 
new opportunities that we haven't been able to capture before.
    Then we're also looking at how, as State agencies, we work 
together to make sure that we're being effective in our 
resources, minimizing duplication, and that the decisions we're 
making support our Employment First goals.
    And finally, No. 7, business employment network, and this 
is one area that I'm probably the most excited about. You 
mentioned, Senator, the whole idea of the global economy. Well, 
through the Council of State Administrators of Vocational 
Rehabilitation, they have really pushed forward this concept of 
the business network, focused on meeting business needs and 
that business is a partner. The more we are able to recognize 
the business needs and the issues that they have, how do we 
help meet that, we're going to be more successful in helping 
our youth and adults transition into the world of employment.
    We'll hear a little bit from Ron Frank, a manager of our 
local Walgreens store in Cedar Rapids. But Walgreens as a 
national initiative is one of many companies that have really 
jumped on the bandwagon here to say how can we help, through a 
qualified, diverse workforce, meet our business needs, and 
we're finding ways to partner with that.
    In Iowa, we're one of several States that Walgreens is 
going to be looking at implementing a retail training program, 
again based on how do we take the skills and interests of our 
candidates, match them up with the skills and needs of our 
business community, and we're really excited about those 
opportunities.
    The Americans with Disabilities Act has provided 
opportunities and encouragement for all of these practices, and 
we really are pursuing a promise that the ADA has helped 
create. We're very excited about the work of the HELP Committee 
and your support, Senator, as we move forward with employment 
for individuals with disabilities and really uniting in 
legislative efforts to call for full employment for all people 
with disabilities. Thank you very much.
    [The prepared statement of Mr. Mitchell follows:]
            Prepared Statement of David L. Mitchell, MS, CRC
    Senator Harkin and committee members, thank you for this 
opportunity and privilege to share thoughts and practices regarding the 
positive and life changing impact the Americans with Disabilities Act 
has had and will continue to have as a new generation of youth with 
disabilities transitions into the employment environment. My name is 
David Mitchell and I am the administrator of the Iowa Vocational 
Rehabilitation Services Program in the State of Iowa.
    Perhaps no other time in our Nation's history has a cohort of 
students graduated where disability is nothing more than a normal 
condition in life and technology levels the playing field. Students who 
are deaf may use video phones and other technologies to interact with 
the ``hearing world'' if they haven't had a cochlear implant early in 
their lives. Students with learning disabilities may access electronic 
readers so that textbooks are accessible and they can demonstrate their 
intellect and not their challenges. Robotic chairs now facilitate 
individuals who are in wheelchairs to stand, move around, and return to 
a seated position whenever necessary thereby opening traditionally 
inaccessible jobs. With the enactment of the American's with 
Disabilities Act (ADA) the ingenuity of the American spirit catapulted 
researchers and developers to consider limitless possibilities, which 
fueled the hopes and dreams of individuals with disabilities to 
experience life in a whole new way. It is only natural that high 
expectations for independence, economic support and full integration 
into community-based, integrated competitive employment not only 
occurs, but should be demanded.
    Students with disabilities transitioning from secondary to post-
secondary environments of living, learning, and working, are native to 
technology and inspire those of us in the service profession to embrace 
a vision of the future that had only previously been an idea in a 
science fiction movie. For these students, the digital divide is 
nonexistent as they are the first generation to grow up with technology 
and disability together, and because of the ADA can now realize a 
future of promise. They are empowered to take control of their destiny 
and we have the privilege of joining them as we connect with their 
informed choices.
    The informed choices of these students have expanded since the 
adoption of the American's with Disabilities Act; and as a result 
opportunities are limited only by the confines of imagination. The 
combination of the ADA, Individuals with Disabilities Education Act 
(IDEA), and the Workforce Investment Act facilitated the development of 
high expectations and aspirations of individuals with disabilities, 
parents, educators and adult service professionals working with them. 
This combination provided impetus to move beyond the status quo and 
enter a new millennia of human potential . . . and the youth led the 
charge.
    An example of youth leadership is provided by the Youth Leadership 
Forum. (YLF) IVRS has been an advocate and partner with the Iowa 
Department of Human Rights in the delivery of services and programs 
supporting YLF. The goals of YLF are:

    <bullet> Young people with disabilities will become employed and 
self-sufficient;
    <bullet> Young people with disabilities will be knowledgeable about 
resources available to them to become successful adults;
    <bullet> Young people with disabilities will be exposed to 
professionals with disabilities who are recognized leaders and role 
models.

    YLF is an example of a service delivery program providing 
leadership training to youth with a set of high expectations impacting 
service delivery options.
    Along with leadership and advocacy comes the need for increased 
informed choices. The Iowa Department of Education began the discussion 
of informed choices with the decision to move away from labeling 
students with disabilities to focusing on their potential as they 
adopted the ``Response to Intervention'' to determine eligibility for 
special education services. This strategy aligned most significantly 
with the dignity of the student and eliminated disability categories 
from the educational nomenclature. Iowa Vocational Rehabilitation 
Services (IVRS) was the next organization to respect and embrace this 
design through the Collaborative Transition Protocol, which allows IVRS 
to determine eligibility of students with certain disabilities without 
requiring a categorical educational ``label.'' Instead the focus is on 
the strengths and needs of the student. While IVRS continues to 
categorize the student in the case record as is required by the Federal 
Regulations and accounting to the Rehabilitation Services 
Administration (RSA), it is no longer the focus for programming and 
decisionmaking that it was prior. The impact this has on the staff 
working with students with disabilities is tremendous and shifts the 
orientation of early rehabilitation to one of collaboration and 
partnership with the students and their team. Even though other adult 
services continue to require the categorization of the individual due 
to their legislations, which does create challenges for service 
coordination, many students in transition are expecting service 
delivery systems to respect their choices and facilitate their 
employment outcome. IVRS has innovatively developed the Collaborative 
Transition Protocol and received approval through the Rehabilitation 
Services Administration to implement the process across the State. We 
have been working collaboratively with local school districts, 
vocational rehabilitation field offices and area education agencies to 
create common understandings as this protocol is implemented. A change 
in the legislation that might further impact this effort is confirming 
the ability to accept the Individual Education Plan (IEP) as 
documentation that the student has a disability, which would meet the 
first criterion for VR eligibility. Schools are required to perform a 
comprehensive evaluation prior to making eligibility determinations for 
special education services through an individualized education program 
(IEP). If VR was able to use existing documentation in the IEP for all 
students it would provide expanded efficiencies and provide 
opportunities to focus on the strengths and needs of the student.
    Employment Outcomes begin with the student and parent expectations, 
but are influenced by business and industry demands. Prior to the 
American's with Disabilities Act, individuals with disabilities were 
viewed as a challenge by business and industry. Concerns over how 
disability might impact their insurance costs, productivity, and work 
environment often influenced hiring decisions. Since the inception of 
the ADA and recent amendments, Iowa Vocational Rehabilitation has 
enthusiastically developed partnerships with business and industry to 
create a more diverse workforce. This is part of a national trend 
sponsored and endorsed through the Council on State Administrators of 
Vocational Rehabilitation (CSAVR) with their National Employment 
Network. Through the use of paid and unpaid internships, IVRS connects 
business and industry with qualified job candidates. The results of 
this service have been promising. At IVRS, 67 percent of individuals 
with disabilities who participate in this type of training obtain 
employment and it appears as the training develops more fully this 
percentage may increase. This service connects business and industry 
with a job candidate pool that employers did not know existed. In 
creating these opportunities, businesses are discovering a job 
candidate pool that has the skills and education to meet their current 
and future workforce needs.
    During the summer of 2012, IVRS will be a lead agency partnering 
with the Walgreen's Corporation on an Iowa initiative and Walgreen's 
national initiative to positively impact training and employment 
opportunities for individuals with disabilities. A focused, intense 
occupational skill training program is implemented onsite at the 
business and engages the individual job candidate with real business 
practices. Through a combination of community partnerships, vocational 
rehabilitation planning and counseling and school/family supports, 
additional opportunities will be provided to help meet the high 
expectations of competitive, integrated community employment.
    Perhaps the greatest challenge in meeting the needs of business and 
industry is connecting students in transition while they are in high 
school and before they formulate their post-secondary plans. While 
there is an IVRS staff person assigned to every high school, there is 
not enough capacity to serve every student in those high schools. 
Attempts by IVRS to connect business and industry using a systemic 
approach through a cooperative agreement were discontinued due to 
Rehabilitation Services Administration's interpretation of regulations 
because all students, and not just students with disabilities, would 
benefit. So while business and industry desires to connect with 
students in transition the mechanisms and strategies to do so continue 
to be isolated with diminishing returns for the business owner because 
of the inefficiencies created by competing regulations. A broader 
interpretation of VR transition services that take place prior to or as 
part of the student's application for VR services should be recognized 
as part of the VR transition process. These services can be delivered 
individually, to groups of students with disabilities or to groups 
containing students with and without disabilities. Activities under 
this category include, but are not limited to career fairs, orientation 
meetings with students and families and classroom trainings provided by 
VR transition staff in collaboration with education staff. Ensuring the 
option for services to be provided to groups containing students with 
and without disabilities is consistent with the requirements for 
services to be provided in the least restrictive environment. This also 
has the benefit of preparing the future workforce to develop 
relationships with individuals from diverse backgrounds and abilities.
    Another challenge in meeting the needs of business is the competing 
funding needs of various community and organization programs. I firmly 
support and believe in the role vocational rehabilitation plays in 
meeting the high expectations of our consumers and business partners 
and support the role of our RSA Commissioner. The strong partnership 
and link with the Department of Education ensures vocational 
rehabilitation is an invited partner to high school staffings and 
further integrates adult service providers into the transition mix. The 
qualified vocational rehabilitation counselor has a unique role and 
creates a positive difference in the delivery of professional services 
integrating employment needs with the strengths, abilities, and 
interests of an individual with a disability.
    The value of the VR counselor assisting students in developing 
employment plans is a key to our future workforce and, many times, also 
requires the use of benefits planning to create a roadmap out of 
poverty for those students on SSI. The funding and support of 
complimentary programs such as the Work Incentives Planning and 
Assistance (WIPA) for VR counselors to use and access qualified benefit 
planners has been a definite asset in facilitating transition from 
government benefits to economic independence for many of our State 
rehabilitation consumers. IVRS, as well as many of our State VR 
programs, do not have the staff or financial resources to carry out all 
of the proposed service needs that are necessary for fully effective 
transition services. The potential loss of these services and the 
expertise of the people who work in the programs would have a negative 
impact on all of our consumers, including those in transition.
    Iowa has approximately 70,000 special education students with 
IEP's. Approximately 20,000 of these students would be in the secondary 
school system. Our current active case load for all consumers being 
served by IVRS is 11,482. Our average professional staff person is 
working with an average of 100 individuals on their case load. IVRS has 
not been able to match all of our Federal monies and in fact, have had 
9.5 percent decreased funding from 2009 with less professional staff 
and overall personnel. This has resulted in IVRS having a waiting list 
of approximately 3,200 individuals.
    Through a focus on innovation, leadership and improved work 
effectiveness, IVRS has been successful in moving forward with positive 
transition services. In 2011, 33 percent of our referrals were from 
transition students and transition students contributed 38 percent of 
our employment outcomes. Our transition outcomes averaged 35 hours per 
week at an average hourly wage of $10.78. This compares favorably with 
the general adult caseload which averaged 33 hours worked per week at 
an average hourly wage of $11.48.
    Another positive service delivery strategy includes the options of 
entrepreneurship. IVRS self-employment program is growing and through 
specialized programming 55 businesses are successfully in operation in 
2011 and 172 over a 4-year period. IVRS and the Federal/State 
vocational rehabilitation program have proven to be a positive return 
on investment. Through the provision of vocational rehabilitation 
services in Iowa, during 2011, individuals with disabilities earned 
$15.7 million more than was spent on the entire VR program.
    If we are going to fully embrace pre-employment transition services 
and transition services to students with disabilities, we need line-
item funding for transition services, with no State-match requirements 
and advocacy with our States to remove barriers with filling staff 
vacancies. Those efforts will enhance our abilities to carry out 
necessary transition services and better meet the hopes and 
expectations for services that individuals with disabilities have as 
well as assist in the carrying out of the promise of the ADA.
    This is a team effort involving collaboration and networking from 
many. IVRS is an active partner with the Iowa Workforce Development 
Board and is finding creative ways to collaborate in helping problem 
solve employment gaps in Iowa. Iowa Work Force has recently announced 
an initiative to help meet the employment gaps being expressed by Iowa 
businesses and IVRS is integrating strategies to move forward with an 
integrated employment vision. In 2010 Iowa's workforce had 38 percent 
of the job applicant pool competing for jobs defined as ``low skills'' 
but there were only 18 percent of available jobs that required ``low 
skills''; while 50 percent of the available jobs required ``middle 
skills'' and only 33 percent of the potential applicant pool 
demonstrated ``middle skills''. Middle skills are defined as those jobs 
which require more than a high school diploma, but not a 4-year degree. 
Middle skill education and training can be obtained from employers, 
community colleges, apprentice programs, nonprofit community-based 
training organizations and private career schools.\1\ Middle skill jobs 
create a gateway into the middle income brackets for workers. 
Businesses have demonstrated a need for qualified workers as evidenced 
by the gap between the numbers of individuals qualified for such jobs 
and the job market. We believe it is essential that IVRS create these 
connections for these businesses with students while they are in high 
school and making life changing decisions regarding their employment 
future. Imagine the future of the Iowa economy as successful employment 
connections occur through the provision of effective vocational 
rehabilitation counseling and training opportunities for students in 
transition. Creating this road map into the middle class will put those 
high expectations created by the ADA into reality. The barrier is no 
longer the attitudes of business and industry, but rather the capacity 
to make these connections within the confines of regulations and our 
service delivery system.
---------------------------------------------------------------------------
    \1\ Middle-Skill Jobs in Iowa, May 2012, Labor Force and 
Occupational Analysis Bureau, Iowa Workforce Development.
---------------------------------------------------------------------------
    IVRS has pockets of excellence in providing these connections. 
Transition Alliance Programs (TAP) in Iowa has proven, since 1997, to 
not only stimulate a work orientation in students, but produce 
employment outcomes. Federal fiscal year 2011 data on these projects 
demonstrate that students who participate in TAPs are positively 
correlated and more likely to:

    1. Be competitively employed after graduation from high school; 
and/or
    2. Pursue post-secondary training.

    These programs provide students the opportunity to learn about 
careers, requirements to work in those careers, connect with businesses 
through work experiences, and develop confidence and skills necessary 
to contribute to their communities. The Rehabilitation Services 
Administration Longitudinal Study demonstrated that students who 
participate in at least two work experiences have a higher propensity 
toward being competitively employed after high school than students who 
do not have these experiences. This is also supplemented through 
various education and transition data. On June 11 and 12 of 2012, I was 
able to attend and participate in the Iowa statewide Special Education 
Conference Program. This was hosted by the Iowa Department of Education 
and IVRS professionals played a contributing role in training sessions. 
The conference was entitled, ``Pursuing the Promise''. Martin Ikeda, 
Ph.D., Bureau Chief and State Director of Special Education (school-
aged), Iowa Department of Education, facilitated the State conference 
and noted in his opening remarks that,

          ``if we are truly going to deliver on the promises of 
        educational equity made a generation ago, we need to do 
        something more, and we need to do it together. Every child in 
        the Iowa public school system deserves to make a year's growth 
        in a year's time, and to have a team of caring individuals 
        working together to prepare that child for life after high 
        school.''

    ``Pursuing the Promise'' was an opportunity to discuss how to 
deliver on high expectations for those involved in the transition of 
our youth. One of the presenters was a young man named Tyler who has a 
disability and had graduated from the Waterloo School District in Iowa 
and is now in his fourth year of college. Tyler's dream is to change 
the way the world interacts with people with disabilities and his 
approach has focused on the individual's strengths and abilities, what 
they can do. This approach provides opportunities for us to use the 
foundation of the ADA, to ask how we can improve employment 
opportunities for individuals with disabilities and recognize the need 
to do things differently now than what we have done in the past and to 
do so with a sense of urgency. Much like the high expectations being 
experienced through the foundation of the ADA, we need to have high 
expectations regarding our secondary and post-secondary training 
opportunities for individuals with disabilities. IVRS is carrying 
forward the conversation of collaboration and partnering at the local 
school district level and recognizes the vital role families, youth, 
teachers, community programs and vocational rehabilitation have in 
effective transition planning and implementation. The integration of 
work and work experiences should be an education intervention and as 
quoted in one of the sessions by Dr. Richard Luecking, president of 
TransCen, Inc. ``all kinds of amazing things happen based upon what is 
learned in work experiences.''
    Work experiences connect the IDEA and Rehabilitation Act 
requirements of Transition with the high school experience. The focus 
of those two pieces of legislation in Transition is about creating a 
meaningful experience, where students understand that what it is they 
are learning has practical applications for their future. By weaving 
together the work experiences with the classroom environment students 
experience a meaningful course of study and businesses in Iowa benefit.
    One nationally recognized program that coordinates classroom 
curriculum with business requirements is Project Search, which IVRS 
will be implementing in the Des Moines School District in the fall of 
2012. IVRS is also partnering through the leadership of one of our 
community rehabilitation providers, North Iowa Vocational Center, a 
Project Search in Mason City, IA which is now going on its second year 
of operation. The Mason City Project Search is serving eight 
individuals. The Des Moines Project is anticipating serving 13 students 
during its first year of operation. Students, who meet the level of 
eligibility criteria to be considered the most significantly disabled, 
will attend high school at a local hospital where they will learn the 
skills necessary to work in a variety of occupations that occur in that 
type of environment. Through their work experience, coordinated with 
their classroom academics that are taught at the business setting, 
these students develop confidence and understand the connection between 
school and work. This partnership between IVRS, the local school 
district, a community rehabilitation provider and a major employer in 
the area will create opportunities for these students who, as they 
transition, will become employed in a ``middle skill'' industry and 
develop a foundation for a promising employment career. High 
expectations drive the planning for these types of programs and these 
practices have developed with the birth and aging of the ADA.
    Entrance into the middle class is the expected outcome from the 
IVRS Blueprint for Change created in 2011. This was developed through 
review of research and agency data to create the IVRS Blueprint for 
Change identifying seven expectations of results that will transform 
the Iowa Rehabilitation Services Bureau within 10 years. Those 
expectations, which when put into practice locally, are measured by the 
success of the individuals with disabilities obtaining employment. 
Those seven expectations are:

    1. Be the undisputed authority on connecting individuals with 
disabilities to employment.
    2. Engage and inspire our job candidates, partners, and business 
community.
    3. Ignite the human potential of our job candidates and business 
partners as they connect.
    4. Expand the opportunities of individuals with disabilities while 
connecting to and supporting our businesses with qualified job 
candidates.
    5. Be a leader in ethical service delivery.
    6. Create innovative employment services worthy of our job 
candidates and needed by our business partners.
    7. Demonstrate an accountable and sustainable employment services 
model.\2\
---------------------------------------------------------------------------
    \2\ Adapted from Onward, by Howard Schultz.

    As a result of this blueprint, IVRS staff are creating employer 
accounts and has seen an increase in businesses and industries that are 
contacting IVRS to hire qualified job candidates. An example of an 
innovative practice occurring in many States, Iowa included, is a 
project with Manpower Staffing to access business accounts that only 
hire permanent employees through them. In addition, conversations with 
community partners and county governments are stimulating ideas for 
programs to serve the chronic mentally ill in a manner that pre-
emptively strives to create employment connections for this population 
before they go on Social Security benefits. If we are able to reach out 
and provide services prior to creating dependency on benefits or 
consider alternative ways to integrate an employment vision based upon 
a foundation of benefits that can meet maintenance needs and allow for 
participation in occupational skill training, we can begin to 
positively impact the employment cycle. Through the day-to-day 
operations, IVRS staff is being given the authority to identify and 
develop solutions on processes and policies that impede employment of 
individuals with disabilities. The synergy from the ADA puts these 
blueprint activities into practice that prior to the ADA would never 
have been realized.
    In high schools, IVRS staff work with local educators to implement 
the Transition Vision jointly developed with Local Education Agencies 
to work more cohesively together to serve students, while minimizing 
duplication of services. While each local district is in varying levels 
of implementation of that vision, together they are focused on creating 
a system that creates a seamless experience for the student. Perhaps 
the greatest opportunity for improvement in this vision is the infusion 
of business expectations and the self-advocacy of employment rights.
    In considering the employment climate and the attitudinal barriers 
prior to the enactment of the ADA in comparison to where we are today, 
it is clear that the winds have changed. Businesses want and need to be 
able to link to this new diverse workforce. Iowa continues to have a 
challenge in promoting a community-based, integrated competitive 
employment vision across all of our statewide employment programs. IVRS 
has taken a lead role in promoting and implementing The Employment 
First Initiative, which challenges everyone to consider competitive, 
integrated community-based employment before any other type of post-
school sheltered employment activity. This cause may speak more to the 
attitudes of the professionals in the industry and those who grew up 
prior to living their lives under the ADA, than to the students with 
disabilities who are looking forward to a brighter and promising 
future, where they will have full access to integrated community 
employment. There is still work to be done to fulfill this promise.
    This past school year graduated for the first time, students with 
disabilities who grew up knowing that employment in the community was 
not a luxury but a right. While there remain obstacles to achieve this 
vision, there is optimism in what has been accomplished and hope on 
what might be yet to come:

    <bullet> Continued diligence of professionals focusing on the 
possibility and not allowing policy barriers to be experienced by the 
individual is essential to achieving full inclusion.
    <bullet> Creating business relationships so information can inform 
the counseling discussions with students in transition so their 
informed choice expands their horizons and thereby changes the 
landscape of the Iowa economy.
    <bullet> Celebrating the uniqueness of all individuals through a 
comprehensive understanding of abilities and assets and finding ways to 
integrate those with the future workforce needs of business will create 
change.
    <bullet> Creating capacity through system development that 
encourages integration and recognizes that through interaction the 
barriers become only perceived and more easily eliminated.
    <bullet> Celebrating the human connection of every student, 
utilizing strategies to unlock their unique potential, encourages a 
fully integrated workforce.
    <bullet> Creating connections between educators and the business 
community to inform the educational system and raise the academic skill 
sets of all students.

    The American's with Disabilities Act had a vision for the American 
workforce. No other single legislation had as much impact on uniting 
the American business community in a call to full employment. 
Collectively with the IDEA and WIA the trifecta is the success of the 
American enterprise and the hope of tomorrow's workforce. We can aspire 
and make the future we seek.

    The Chairman. That was very good. Thank you very much, Mr. 
Mitchell. That was great.
    [Applause.]
    That was very good.
    Now we'll turn to Mr. Shults. Please proceed as you so 
desire.

STATEMENT OF RICK SHULTS, MENTAL HEALTH AND DISABILITY SERVICES 
DIVISION ADMINISTRATOR, IOWA DEPARTMENT OF HUMAN SERVICES, DES 
                           MOINES, IA

    Mr. Shults. Thank you very much. I really do very much 
appreciate the opportunity to be a part of the celebration of 
the 22 years of the Americans with Disabilities Act and all 
that comes along with that. Since I have grown up in the 
profession under that promise of improvement for integration of 
people with disabilities, I greatly appreciate all the work 
that folks have done in order to support that. I'm very pleased 
to be able to be here today.
    It really has established, though, very high expectations. 
We need to live up to those expectations, and the expectations 
of the ADA generation. I like that term very much. And I think 
it's very important that we hear from people what their 
expectations are, and that we attune what we do to their 
expectations and not to ours. That's what we have to live up 
to.
    It's very hard to cover the whole aspect of all of the 
positive things that have happened with the ADA and the 
promise, so today I'm going to focus on individuals, youth with 
serious mental illness and the importance that employment plays 
in their mental health recovery.
    We know that as many as 12 percent of individuals in the 
United States between the ages of 18 and 25 have a serious 
mental illness, and they have a much greater likelihood of 
becoming involved with the criminal justice system and not 
completing high school, as you mentioned earlier; and without 
adequate support they're less likely to live healthy lives, 
less financially secure, have higher rates of unemployment, 
have higher rates of homelessness, and are subject to substance 
abuse. So without adequate supports and services, this could be 
a tragedy, not only for them but for their family and for the 
community and society as a whole.
    It's very important that we provide the kinds of supports 
that are necessary for these individuals to experience 
recovery. But recovery comes in a wide array of packages. It 
includes the clinical treatment for mental illness. It includes 
the involvement of the person, the family, their friends in 
that treatment process. But equally important, we need to have 
them fully included in society.
    Just 6 months ago, we did a large survey across the State 
and asked individuals what was the most important thing in your 
life, and what kinds of services supported that, and we were 
pleased to hear that individuals with mental illness reported 
that, yes, indeed, quality clinical services are important to 
their lives, but equally important to their lives are the 
services that are provided that provide them the supports to 
live independently and allow them to work in integrated, 
competitive settings.
    That is a clear message to us that, yes, indeed, we have to 
provide quality clinical services, but we also have to offer 
additional support to allow them to live successful, healthy, 
successful, competitive lives in their homes and communities.
    We also know that employment is critical to individuals' 
mental health recovery. My staff told me the story of Betty 
just the other day, an individual, a young lady that lives with 
serious mental illness. She was experiencing significant mental 
health recovery in her life, and she had reported that to the 
people she works with and her case managers.
    The case managers were so pleased they invited her to come 
in and share a testimony of her mental health recovery. 
Interestingly enough, she shared all of the positive things 
about her life, the kinds of things that have allowed her to 
experience that recovery, and then ended her testimony with, 
``but I will not feel that I have experienced full mental 
health recovery until I have a job.'' The people in that group 
learned much from Betty's testimony and, as a matter of fact, 
turned around that day and made sure that they were working 
with her to provide her support for her job, and she has that 
today.
    Employment is critical to mental health recovery. We in 
Iowa are working hard to move forward to try to live up to that 
expectation. As we speak today, we have the Olmstead Consumer 
Task Force meeting, and I will be leaving from here to go to 
the second half of that meeting this afternoon to provide an 
award for one of the advocates of that group. But that's a 
unique group, and it's very reflective of the efforts in Iowa. 
It is a group of individual consumers of mental health and 
disability services, advocates for those services, and 
representatives of a wide array of State agencies who come 
together to look at how well we're achieving the principles of 
Olmstead and what more we can do to move forward to reach that 
vision.
    With the help of the university and many others, that 
Olmstead Consumer Task Force has been critical. It has been so 
critical, in fact, that it has been a key feature in the 
development of our mental health and disability services 
redesign in Iowa, and I'll talk a few minutes about that.
    Mental Health and Services Redesign is an act that was 
passed in a bipartisan fashion by legislators such as Senator 
Jack Hatch, Representative Renee Schulte and many others who 
led this through the legislative session last year, and it 
really is three pieces of hallmark legislation that is going to 
allow us to move even further than we've ever been before in 
the integration of individuals with disabilities in the 
community.
    One aspect of that redesign is making certain there is an 
access to minimum kinds of services in every region of the 
State, and those services are defined in various domains. One 
of the domains is support services for employment. That means 
as we go forward in the development of regions to administer 
mental health and disability services, every region in the 
State will be required to provide services that support 
individuals to achieve their goal of integrated community 
employment.
    Another aspect of Mental Health and Disability Services 
Redesign is evidence-based practices, and that requires that 
the services that are provided follow evidence-based practices 
and use those kinds of services that are effective. So not only 
are services accessible, but they're also effective.
    An example of that is Bill, who grew up in a small Iowa 
town. After he graduated from high school, he had multiple co-
occurring challenges in his life. He got together with his case 
manager. They decided he wanted to work. They got him a job in 
the local cafe washing dishes, which is a typical story that 
you often hear.
    However, Bill took that further. With the help of his case 
managers and others, he learned the entire business. He learned 
how the restaurant operates, and my staff came to me just the 
other day celebrating the fact that Bill had been given the 
keys to that restaurant because he could now open and close the 
restaurant. He could run that cash register. He could do all 
aspects of the restaurant, and he has become a valued member of 
that community, and he is now in the process of phasing out the 
support team he was getting because he is becoming completely 
self-sufficient. So we're very pleased with that.
    [Applause.]
    So that ties into the effectiveness. We have to not only 
have access to services, but they must be effective, and I will 
look forward to hearing more about that from this panel. I'm 
very pleased to be able to hear that.
    Those effective services allow us to raise the employment 
standards, but we're not using those evidence-based practices 
enough. So we need to move forward in implementing those 
evidence-based practices much more effectively across the 
State.
    Monitoring our success. Another aspect of Mental Health and 
Disability Services Redesign is the requirement for measuring 
outcomes and having performance measures, one of which is 
making certain that persons with disabilities, including youth 
with serious mental illness, are competitively employed, and 
that we gather that information, that we measure that 
information, and we regularly publish it so we can see how 
we're doing and we can hold ourselves accountable because, 
after all, we only do what we measure. And if we publish that 
and lay it out before us, we will always remember to focus on 
that service.
    We have other aspects that we're undertaking. We appreciate 
the Federal Government providing us through CMS additional 
Federal funds through the Balancing Initiative Payment Program 
which provides additional funding for community-integrated 
programs. We appreciate our partnership with the State 
Leadership Employment Network, SLEN. We have some folks from 
SLEN here in the audience, and the work that they're doing to 
support us is greatly appreciated.
    And collaboration, as David said, collaboration among State 
agencies, we have a shared vision that individuals with 
disabilities should have the opportunity to be competitively 
employed, meeting regularly so that we can look at each of our 
areas that we're responsible for to ensure that we're working 
together to the best effect of providing supports and services 
for individuals that want to be employed is critical to the 
success of this effort.
    The most important thing as a result of all of that is 
having people that want to work holding us accountable for what 
we do. We'll hear some more about that today, about the 
successes, but involving individuals with disabilities and 
advocates in policymaking, in providing us feedback, in holding 
us accountable for what we're doing so that we can live up to 
their expectations. I do think that's the promise of the ADA, 
full involvement.
    I am very pleased to be a part of Iowa's effort to fully 
involve individuals with disabilities in policy planning, in 
governance, in involvement in our work groups, and in peer 
support, which I will tell you over and over again, individuals 
coming up to me and saying when are you going to expand peer-
support services because of how critical those services are. I 
hear that often through our Office of Consumer Affairs.
    So we really invite people to hold us accountable, because 
if we're not doing the right things to provide the support, 
it's really not our lives that are affected. It's the lives of 
the people with disabilities, their family, friends, and their 
community. So we look forward to that accountability.
    So thank you for the opportunity to celebrate today, 22 
years of the Americans with Disabilities Act, and to share a 
little bit about the direction that we're headed under Mental 
Health and Disability Redesign that's built on that foundation 
of the ADA, and moving forward to achieve the expectations of 
the ADA generation. Thank you.
    [Applause.]
    [The prepared statement of Mr. Shults follows:]
                  Prepared Statement of Richard Shults
    Mr. Chairman and members of the committee, my name is Richard 
Shults. I am the administrator for Mental Health and Disability 
Services in the Iowa Department of Human Services (DHS). I appreciate 
the opportunity to celebrate 22 years of the Americans with 
Disabilities Act (ADA) and to share some thoughts about how we can all 
work together to help meet the high expectations of the new generation 
of Iowans as they enter the labor force.
    The ADA has had and continues to have significant positive effects 
on the lives of persons with a wide variety of disabilities in many 
different aspects of their lives. It is impossible, in this short time, 
to recount all of the many positive aspects of the ADA. While in my 
role, I am concerned about the success of all Iowans with disabilities, 
today I will focus my remarks on youth with a serious mental illness 
(SMI) and the important role integrated, competitive employment plays 
in their mental health recovery.
    The American Psychological Association reports that 12 percent of 
youth between the ages of 18 and 25 have an SMI. These youth have a 
threefold likelihood of becoming involved with the criminal justice 
system. Sixty percent of them do not complete high school. Without 
adequate supports and treatment, people with an SMI live less healthy 
lives, are less financially secure, have higher rates of chronic 
illness, and are vulnerable to unemployment, homelessness, and 
substance abuse. Without adequate support and treatment an SMI can 
become a personal, family, and societal tragedy.
    However, recovery from mental illness is possible. With the help of 
adequate supports and services Iowans with mental illness can and do 
live safe, healthy, productive, successful, self-determined lives in 
their homes and communities. The hope of recovery is real.
    Recovery is supported by many things: effective evidenced-based 
treatment; full involvement of the person, family, and friends in the 
person's treatment; and full integration into society. Full integration 
into society includes competitive employment. Employment provides a 
meaningful activity that gives youth with an SMI a positive identity, a 
sense of purpose, and value. Employment is key to the recovery process.
    We can and must do more to ensure the justifiably high employment 
expectations of Iowa's next generation are met. In Iowa, we are 
undertaking that effort. Iowa has embraced the principles established 
through the Olmstead ruling. In fact, as we speak, Iowa's Olmstead 
Consumer Task Force is meeting and discussing progress being made in 
meeting these principles and identifying additional steps to improve 
progress toward a full life in the community for persons with 
disabilities.
    Last year, following directions provided by the Legislature, Iowa 
engaged a series of workgroups to recommend a redesign of the Mental 
Health and Disabilities (MHDS) system. Over 200 Iowan's participated in 
these workgroups and over 1,000 attended ``Listening Post'' meetings 
across the State. The resulting workgroup reports included 
recommendations consistent with the principles of the Olmstead 
decision. A bipartisan group of legislators used the workgroups' 
recommendations as the basis for the recently passed MHDS Redesign Act.
    One aspect of the MHDS Redesign Act is to ensure that basic core 
services are accessible in every region of the State. One of the core 
service domains that regions will be required to provide is support for 
employment. This means that persons with disabilities in every region 
in the State will have access to services that support their goal for 
seeking and keeping employment.
    The MHDS Redesign Act also requires that services and supports be 
evidenced-based thereby ensuring services are both accessible and 
effective. Supported employment has evolved into an evidenced-based 
practice for finding and keeping persons with an SMI employed. 
Evidenced-based supported employment focuses on individual placement of 
the person's choice in competitive, integrated employment. It minimizes 
the use of screening for employability, transitional employment, or 
prevocational training. Instead, the goal of supported employment 
evidenced-based practice is to find a natural ``fit'' between the 
person's strengths and experiences and jobs in the community.
    Without evidenced-based support, employment rates of youth with an 
SMI are 20 percent or lower. Research shows that evidence-based 
interventions raise this to an average of 58 percent. We have known 
these approaches are successful for many years. In preparing for this 
testimony, I reviewed research from the early 1990s that confirmed the 
effectiveness of these approaches in helping people with an SMI get and 
keep jobs. But we do not use these evidenced approaches frequently 
enough and the employment rate for persons with an SMI remains 
unacceptably low. Clearly much more improvement is needed.
    To help monitor and motivate this change the MHDS Redesign Act 
requires that performance-based outcome measures be established, 
measured, and published. One critical outcome is the extent to which 
persons with disabilities, including youth with an SMI, are 
competitively employed in integrated settings. Such measures not only 
keep us all accountable for the effectiveness of the supports and 
services we provide, but identify pockets of excellence that we can 
learn from. As the adage says, ``We do what we measure.'' Regular 
publishing of outcome dashboard indicators, including the extent to 
which people are competitively employed, will help focus our attention 
on this important goal.
    In addition, Iowa is taking advantage of tools made available by 
the Federal Government to help achieve employment and other recovery 
goals. Iowa has recently been approved for the Balancing Incentive 
Payment Program (BIPP) designed to bring balance to the amount Iowa 
pays for institutional services compared with community-based services, 
like competitive employment. The BIPP provides additional Federal 
Medicaid matching funds that can be used to assist with expanding the 
availability and effectiveness of community-based services.
    Iowa is also a member of the State Employment Leadership Network 
(SELN). SELN brings together State Developmental Disability agencies 
for sharing, educating and providing guidance on practices and policies 
around employment of persons with disabilities. National SELN staff, 
some of which are housed in our MHDS offices, are currently evaluating 
what more DHS could do to ensure employment support services are 
successful. DHS' somewhat unique administrative structure allows the 
practices and approaches learned through SELN to be used to support 
persons with many different disabilities, including youth with an SMI.
    It is critical that all agencies charged with similar goals work in 
concert and collaboration with one another to better achieve the goals. 
In Iowa Vocational Rehabilitation, the Iowa Medicaid Enterprise, the 
Iowa Behavioral Health Plan, the State Developmental Disability 
Council, and Mental Health Disability Services have a shared vision of 
employment for people with disabilities and have developed a close 
working relationship. Our staffs talk regularly in an effort to 
coordinate our activities to the best effect for the people we support.
    The most important aspect of living up to the expectations of the 
new generation of Iowans is to ensure they are involved and empowered. 
When services are not accessible or effective, it is not our lives we 
are affecting, but those with disabilities, their family, and friends. 
It is important people are empowered to hold us accountable for 
achieving the expectation of competitive work. In Iowa we are doing 
this through the establishment of the Office of Consumer Affairs, 
participation in local listening posts, involvement of persons served 
in policy advising workgroups and regional governance boards, and the 
expansion of peer support services. Through these and other consumer-
driven efforts, we will be more responsive in ensuring the employment 
expectations of the new generation of Iowans is met.
    I would be happy to take any questions you may have.

    The Chairman. Thank you both very much.
    It's really encouraging, isn't it, to see that we have 
public servants of this caliber who are devoting their lives 
and their work to making lives better for others, to make our 
society work better? Every time I hear someone bash bureaucrats 
or whatever, I think of people like Mitchell and Shults. Aren't 
they great?
    [Applause.]
    There are some people from the State Employment Leadership 
Network out here. Are some of you here who are involved in that 
network? I just wanted to recognize you and thank you for your 
involvement in it, some people back there, up here. Thank you 
very much for your volunteerism in that regard.
    I just have a couple of questions. You were both so very 
good and comprehensive.
    David, you hit upon something that we have heard about so 
many times in the past, and that is you called it work 
experiences. I kind of call it internships, but getting to kids 
with disabilities when they're in secondary school and getting 
them hands-on work experiences so that they have an 
appreciation for what might be out there, encouragement, but 
also maybe to find out maybe there are some things they don't 
like to do, too, and they can say, ``Well, I don't like to do 
that, maybe I want to do something else,'' and to give them 
that kind of internship.
    Would you speak again about how you see that, how important 
that is?
    Mr. Mitchell. I definitely agree with you, and we certainly 
found that the more opportunities we have in providing 
community experiences, the more opportunities individuals have 
to make better informed choices, and that's on things that they 
don't want to do also.
    So certainly our role, as we look at how do we engage with 
education, is to look at what are we doing to push forward 
individual education plans that focus on an employment outcome, 
and you need to provide experiences with that. It can be as 
simple as going out and doing some job shadowing, doing some 
role playing with mentors out in the community, matching them 
up with business partners they have some interest in, career 
planning and life changing experiences that will help somebody 
figure out, well, this is something I never even thought about 
doing, but I found out I have a passion for it now. It could be 
some volunteer opportunities.
    As you expand on those types of steps, you begin to look 
at, well, how do we integrate those ideas that we're getting 
into some opportunities that will promote economic self-
sufficiency, and that's where we get into some paid 
experiences, and they build upon each other.
    The Chairman. That No. 7, that business employment network, 
is that part of that too, about getting these kids early on 
into an experience?
    Mr. Mitchell. Yes, sir. I think Walgreens will talk a 
little bit about their experiences working with youth and 
adults. But it's really getting somebody an opportunity to see, 
well, what does it mean to get to work on time? What does it 
mean to get back from a break on time? How do we deal with the 
social skills and independent living skills that impact 
employment?
    As we're able to provide those opportunities, we can learn 
so much. It really is a chance that we can aspire to do the 
work that we want to do through learning from those work 
experiences. I think the business network and being able to 
look at the business needs provide some opportunities that 
build a foundation to say, ``Well, if you want to be able to do 
this type of occupation, here are the skills, here are the 
types of job tasks that that would involve.'' And as we provide 
opportunities for a person to learn about those things, we're 
building that foundation for future success.
    The Chairman. Thank you very much.
    Rick, you mentioned something that I wanted to bring up 
here, and that was the peer-support services. Elaborate on that 
a little bit more for me, will you? Especially when it comes to 
youth with severe mental illness and how you build peer-support 
services. Just inform me a little bit more about the value of 
that.
    Mr. Shults. Absolutely. Having someone who has had a lived 
experience with a mental illness and is currently working--
whether it is in peer support or other settings--on being able 
to talk to a youth that's experiencing a severe mental illness 
is invaluable, because I can't come to an individual and say, 
``Well, you know, things are going to get better, we're going 
to be working through this process,'' but I don't have that 
lived experience, I don't have that credibility. To be able to 
have someone who has the credibility, has the lived experience 
and can demonstrate to that youth that, yes, this is difficult, 
this is challenging. We don't diminish that at all, but you 
will go through these steps of recovery, and there is hope.
    The Chairman. Are you developing a cadre, for example, or a 
group of people?
    Mr. Shults. Yes, yes.
    The Chairman. A lot of times, people who have been through 
a serious mental illness and who have now gotten better and 
they're employed, sometimes they don't like to talk about it. 
So you have to bring them out and get them to mentor other 
people. Are you developing that kind of group?
    Mr. Shults. Exactly. Actually, I was trying to remember, in 
the next month or so there's going to be training that's 
sponsored by our Iowa Behavioral Health Plan to train more 
peer-support workers, and we're going to make a larger 
emphasis. We do use Medicaid funding to fund peer-support 
workers, and what we need to do, then, is for those individuals 
who are not Medicaid eligible, also make that available, and 
that is part of the future of Mental Health and Disability 
Redesign.
    So, yes, improving our training, making that training 
regularly available and reaching out to individuals, and then 
providing a reasonable reimbursement and support for those 
folks who do that valuable work.
    The Chairman. Sure. They've got to travel sometimes.
    Mr. Shults. Yes, yes.
    The Chairman. You need that kind of support for that.
    Mr. Shults. Yes.
    The Chairman. Well, thank you both very much. You're 
welcome to stay as long as you'd like and listen. I thought 
some of you might have to leave.
    Who mentioned the youth leadership forum next week? That 
was you, David? Andrew Imperato, who is my staff director on 
this, is going to be speaking at that next week. I might inform 
you that some of you know Andy. Andy was with me back when we 
did ADA, back in those days. He was just a young kid then.
    [Laughter.]
    Mr. Imperato. And so were you.
    [Laughter.]
    The Chairman. Thanks a lot.
    It was so vitally important. And then he left and started 
something called the American Association of People with 
Disabilities, built it up into a national organization, became 
its president and CEO. He got it all going and then decided 
that he didn't want it to be all about him, so turned it over 
to other people, and now we have him back running our operation 
in the U.S. Senate. So it's nice to have Andy back, and he's 
going to be speaking at that youth group.
    [Applause.]
    Now we'll turn to our second panel, and we're going to 
start with Ron Franks.
    Ron Frank has worked for Walgreens for 27 years. He's been 
a store manager for 20 years. He's currently the store manager 
of Walgreens store on 29th Avenue in Cedar Rapids. His 
testimony describes how his Walgreens store has partnered with 
Goodwill of the Heartland and Sportability of Iowa for supports 
and recreation programs to enhance employment outcomes for 
youth and adults with disabilities.
    I'll let him describe all that. I just might mention, for 
the benefit of the people here, that sometime ago I became 
acquainted with a guy by the name of Randy Lewis, who is with 
Walgreens, and I saw a video of his that just blew me away 
about the employment of people with disabilities. Then I asked 
him to come testify before this committee in Washington several 
months ago.
    Out of that, Greg Wasson, who is the CEO of Walgreens, 
which is a big operation, obviously, invited a bunch of CEOs up 
to Windsor, CT, and that was about a month ago, a month-and-a-
half ago, something like that, and we brought together CEOs 
from a lot of different organizations, UPS and Office Max and 
Best Buy and Lowe's. This was really a high-level meeting, and 
what Wasson and Lewis wanted to show was how Walgreens had gone 
out and, through training and full integration, had people with 
disabilities working right alongside people without 
disabilities, and it benefited their bottom line. It was 
actually better for them to do that.
    It was so encouraging that out of that now, we're going to 
have another meeting of CEOs that's going to take place in 
Dallas, TX, I think, later this year. So this whole thing is 
expanding.
    I think you mentioned, David, about the goal of 6 million. 
The U.S. Chamber of Commerce last year invited me down to speak 
with them. That's sort of rare for me.
    [Laughter.]
    And we all agreed, and they came out. They did a wonderful 
thing there. They are really promoting again the 6 million, 
about a 20 percent increase by 2015, of people with 
disabilities in competitive, integrated employment.
    [Applause.]
    I wanted to say that as a way of paying my compliments both 
to Ron and also to Walgreens, who have done a great job.
    Ron, your statement is made a part of the record. Please 
proceed.

          STATEMENT OF RON FRANK, MANAGER, WALGREENS, 
                        CEDAR RAPIDS, IA

    Mr. Frank. Thank you for letting me speak today about a 
subject I'm very passionate about, and also thank you for 
taking care of the first sheet of my speech here.
    [Laughter.]
    As you said, I've been with Walgreens 27 years, and I just 
moved to Cedar Rapids about 5 years ago. We started this 
program through Goodwill of the Heartland, a skills training 
program for individuals with disabilities--it's a 120-hour 
curriculum where they combine classroom work and on-the-job 
training.
    They come into the store. We usually have maybe three to 
six individuals, and in my back hallway by my office we have a 
table back there and we teach them all the skills from counting 
the register, customer service skills, how to greet a customer, 
how to talk to a customer, team work, stocking, cleaning, 
anything that needs to be done in the store.
    They learn the skills, and then they come out into the 
store and work with my team members. It's been very beneficial 
for my staff having them into the store.
    I also, throughout the program which is 8 weeks, get to see 
them every day for 8 weeks, and that's really nice to be able 
to see the progress from when they start until when they 
finish. There are some that don't make it through the program 
because they're not ready for that particular part of the 
training.
    But by the end of that training, we get a list of 
individuals that we can employ, maybe not at my store, but it 
might be at one of the stores across town, or it could be at 
the Casey store, the Goodwill store, Fairway, the Cinema 16 
Theater in town. What I look for out of this program is for 
them to learn the skills so they can take it and get employment 
somewhere.
    I also have another passion that I got involved with. It's 
adaptive sports, and it's through Sportability of Iowa. It's 
given kids the opportunity to participate in sports, adaptive 
sports, wheelchair events. Before I got started on this, there 
were no adaptive chairs in Cedar Rapids. I thought that was 
kind of not very right, not fair.
    Mr. Imperato. Explain what an adaptive chair is.
    Mr. Frank. A hand cycle. That's adaptive equipment. A 
basketball chair, a tennis chair. The wheels are angled so that 
they have more stability and they don't tip over.
    We started doing these fundraiser basketball games and 
trying to raise some funds to get chairs into this area to 
benefit the youth, to benefit vets that come back, where they 
can participate, go to the Y and learn the skills that gives 
them some confidence to help them in employment.
    I also have been involved with an adaptive sports camp at 
University of Northern Iowa, and this is where I met an 
individual, a young man. He's 18 now. He was introduced to 
adaptive sports through this camp, and all he was able to do 
was be like a manager for the high school team. But since he 
went to this camp, he now has three State titles in track 
events. He's the first high school student in the United States 
to compete in a State cross-country meet in the wheelchair 
division last year.
    He would never have had that opportunity if he didn't go to 
that camp, and that's helped him in his life, it's helped him 
in his school, it's helped him have opportunities for possibly 
a 4-year degree and a scholarship at one of the colleges.
    When you go to some camp like this, it's amazing when they 
give somebody an opportunity, and I'm trying to tie in the 
sports with employment because sports, you get social skills, 
you get problem-solving abilities, the ability to be an 
effective team member. I mean, I've seen studies where they say 
sports, just anybody participating in a sport helps them become 
a better student.
    Wouldn't it be nice to be able to have a hand cycle and a 
racer chair available in the high school community for somebody 
to have that opportunity to be able to participate? As of right 
now, that's not the case. They have to apply for a grant. A lot 
of people apply for grants. Sometimes they don't get them. 
Maybe the school boosters can do a fundraiser and purchase a 
chair for that individual. But there's been a lot who have gone 
through school that haven't had that opportunity to be able to 
participate, and I would like to see something change in that.
    People with disabilities need to add value to a business as 
an employee. Otherwise it isn't employment, it's a charity. 
Certainly it's nice to give a person with a disability a 
chance, but we want that opportunity to be sustainable. The 
paycheck must be earned, and people with disabilities have 
tremendous skill sets and capabilities. However, they may need 
supports and opportunities to acquire them or to demonstrate 
them.
    Walgreens company has found great value in employing people 
with disabilities, and certainly in my store and in stores 
across Iowa we see the value and help develop it through 
partnerships, through groups like Goodwill of the Heartland and 
vocational rehabilitation.
    This concludes my remarks. Thank you.
    [The prepared statement of Mr. Frank follows:]
                    Prepared Statement of Ron Frank
    Good morning Chairman Harkin, Ranking Member Enzi, and 
distinguished Senators. I am grateful for the opportunity to testify 
before you today about a cause that I am passionate about.
    My name is Ron Frank. I have been an employee at Walgreens for 27 
years and have been a store manager for 20 years. My current position 
with Walgreens is Store Manager for the 29th Avenue store in Cedar 
Rapids, IA and Community Leader for stores in Cedar Falls, Waterloo, 
Mason City, and Waverly. I am here to tell you about employment of 
people with disabilities from my perspective as a retail store manager 
and community leader for Walgreens, a 112-year-old retail pharmacy 
chain that started with one store in Chicago. Walgreens has grown into 
the country's largest network to meet America's health and daily living 
needs, helping people Stay Well, Live Well, and Get Well. With almost 
8,000 stores in all 50 States plus Puerto Rico, we are central to most 
of our Nation's communities and their healthcare needs. From day one, 
this company has valued employees and viewed them as the key asset of 
the company to achieve our goal of providing a superior customer 
experience.
    With the ADA anniversary upon us, Walgreens understands the need 
for enhancing employment outcomes for youth and young adults with 
disabilities.
    Our company has a long history of employing people with 
disabilities and has focused on it as an intentional goal in the past 7 
years. The committee is aware of the story of how our distribution 
centers are inclusive of people with disabilities from Walgreens senior 
vice president Randy Lewis' testimony before this committee last year.
    My Walgreens store in Cedar Rapids, IA has pioneered efforts for 
enhancing employment outcomes for youth and adults with disabilities 
through programs partnering with Goodwill of the Heartland and with 
Sportability of Iowa.
    My Walgreens store has been partnering with Goodwill of the 
Heartland to provide a job skills training program, allowing job 
seekers with disabilities to gain both classroom knowledge of the 
retail environment and job seeking skill development including real 
hands-on experience in a retail setting for the past 4 years. The 
Community Based Retail Training Program is an 8 week course offering 
retail skill development. Goodwill of the Heartland has a 120-hour 
curriculum combining classroom and sales floor experiences. Students 
learn from my staff by working with them in all aspects of the store 
including how to set-up a cash register drawer, ring up a sale, and 
give correct change. Money handling skills include not only cash and 
coin, but also credit and other electronic cards, and check writing. 
These skills are taught in a classroom setting at my location and 
reinforced side-by-side with the Walgreens staff and customers. They 
learn how to do these jobs, not just by watching but by working on the 
registers, stocking the shelves, cleaning the store, and providing 
customer assistance. I meet individually with students to discuss and 
teach about what it takes to get a job and keep a job, from the 
application process and interviewing and keeping a job after they have 
been hired. The funding for this program comes from Vocational 
Rehabilitation. Iowa Vocational Rehabilitation supports job seekers in 
this training to help determine their skills and job interests. The 
program began at my store almost 5 years ago and since then we have 
started the program in Waterloo, Waverly, Dubuque, Des Moines, West Des 
Moines, Iowa City and Ankeny in Iowa as well as in Fort Wayne, IN. 
Walgreens has opened its doors to people who typically experience 
barriers to employment by welcoming these job seekers and training them 
in today's world of work. Over 18 people have been hired at Walgreens 
in the Cedar Rapids/Iowa City area alone as a result of this training. 
Participants of the training program have also been hired as stockers, 
greeters and cashiers at Casey's General Store, Goodwill Stores, HyVee, 
Fareway, and Cinema 16 Theaters. My experience with this program has 
proven to be successful in offering opportunities to those with 
disabilities to gain the skills needed for employment as well as 
benefited the employees, the community, and Walgreens. People with 
disabilities are truly capable if given a solid program that not only 
supports them in gaining skills, but expects them to gain those skills.
    Through Walgreens, I have also partnered with Sportability to give 
young people with disabilities the opportunity to participate in 
sporting activities. My store along with stores in Waterloo have 
organized and participated in wheelchair basketball fundraiser games at 
the local high schools in our communities. The games include both 
people with and without disabilities to increase awareness and provide 
funding for the adaptive sports equipment needed for youth with 
disabilities to have the same opportunities and benefits of sports as 
those without disabilities. As a community event with Walgreens, I have 
also volunteered at a week-long adaptive sports camp at the University 
of Northern Iowa. I have seen personally the looks on the faces of the 
youth who participate in sporting activities for the first time and it 
has impacted me on a personal level as well. On my own I started a 
program to raise money for the adaptive sports equipment needs by 
creating sponsorship packages for businesses. I am very passionate 
about sports being available for youth with disabilities, because I 
have seen firsthand the difference it can make in an individual's life 
and employment skills. A good example is a young man, now 18 years old, 
who was introduced to adaptive sports through the adaptive sports camp 
I have volunteered for. This young man was always interested in sports, 
but was only allowed to be a ``manager'' for teams at school. Since his 
first camp experience, 3 years ago, where he was introduced to many 
adaptive sports including track, he has earned a State title in three 
wheelchair track events and was the first high school student in the 
United States to compete in a State Cross Country meet in a wheelchair 
division last year. His confidence has blossomed in all areas in life 
and he currently has a part-time job and a possible opportunity for a 
scholarship at a 4-year college. He also participated in several job 
shadows in the community and a paid work assessment at my store through 
Systems Unlimited. His future is bright but without this opportunity to 
experience support and success in athletics along with he and his 
parents' dedication and determination to travel across the State to be 
able to participate in those opportunities; his future may look 
different today. Sporting opportunities in Iowa and across the country 
are limited for individuals with disabilities, partly because the lack 
of sporting equipment and that is something I am trying to change.
    Young people with disabilities have limited opportunities to 
participate in group and individual sports due to schools', camps' and 
leagues' lack of adaptive equipment. Adapted sports participation 
provides an opportunity for young people with disabilities to become 
and stay physically fit and healthy. Later on sports benefit 
individuals with and without disabilities because the skills gained, 
such as social skills, problem solving ability, the ability to be an 
effective team member, along with an increase in self confidence, match 
some key skills needed for many gainful employment opportunities.
    We can enhance employment outcomes for youth and young adults with 
disabilities by ensuring that they have opportunities to learn skills 
that are marketable in today's labor force and have as many 
opportunities as possible to gain the soft skills that other youth get 
through athletics and intramural sports. Agencies, schools and other 
supports for students and young adults with disabilities must be 
aligned with local business needs. They must believe that their 
students and clients can acquire the skills and manage the jobs that 
require those skills. These institutions must demonstrate the 
expectation that tomorrow's future disability leaders have the 
potential to add value to an employer as an employee, not as a charity. 
The best way to accomplish this is to have the agencies know how to and 
be able (and expected to) partner with business in their community to 
understand what is needed and establish the connections and knowledge 
to develop such skills. One of the reasons that my store's program is 
so successful is the relationship between myself and the leaders at 
Goodwill. They have asked good questions and responded to my feedback 
to ensure the program is robust and relevant.
    At Walgreens, we believe that some of the things that can help are 
simple and some are more complicated. Very simply the expectation that 
people with disabilities can and will acquire skills and have supports 
to be competitive in today's workforce is the first step. Outcomes 
versus process are true indicators of the success of programs. 
Performance metrics should be high reaching and also assume that people 
with disabilities can and will compete with others in the job market as 
long as supports are provided. And finally the system should support 
the notion that companies can benefit from the contributions of people 
with disabilities within their operations. As long as the pipeline is 
filled with qualified candidates with disabilities, we can certainly 
ensure opportunities for them.
    People with disabilities need to add value to a business as an 
employee, otherwise it isn't employment, it is charity. Certainly it is 
nice to give a person with a disability a chance, but if we want that 
opportunity to be sustainable, the paycheck must be earned. And it 
should be earned, people with disabilities can have tremendous skill 
sets and capabilities, however they may need supports and opportunities 
to acquire them or to demonstrate them. Across the Walgreen Company, we 
have found great value in employing people with disabilities, and 
certainly in my store, my community's stores, and in other Iowa stores 
we see that value and help develop it through partnerships with groups 
like Goodwill of the Heartland. Iowans with disabilities are definitely 
demonstrating their value and capability every day.
    This concludes my prepared remarks, I am happy to answer any 
questions. Thank you and be well.

    The Chairman. Thank you very much.
    [Applause.]
    As I said, what I've learned from Walgreens is that their 
bottom line actually improved with the employment of people 
with disabilities.
    So now, please don't take any offense, but we saved the 
best for last.
    [Laughter.]
    Now we have three young people, part of what I call the ADA 
generation, who have wonderful stories to tell about what 
they've done and I think show what people can actually 
accomplish if they have high expectations for themselves and if 
we also have high expectations for them.
    The first is Emilea Hillman.
    Ms. Hillman. Emilea.
    The Chairman. Emilea Hillman.
    Ms. Hillman. There you go.
    The Chairman. I'll just say Em, a 24-year-old woman who 
lives and works in Independence, IA. Her testimony focuses on 
her employment history.
    Well, I'll tell you what, why should I read this? I'll let 
her tell the story.
    [Laughter.]
    All right, Em, welcome to the committee.
    She is being assisted by her sister, Ashlee.
    Ms. Hillman. Right here.
    The Chairman. I met her before, yes. And your mother is 
here, too. I know that. I met her before, too.
    Well, Em, go ahead, please.

         STATEMENT OF EMILEA HILLMAN, INDEPENDENCE, IA

    Ms. Hillman. Good morning. My name is Emilea Hillman, and I 
am the owner of Em's Coffee Company, Independence, IA. Thank 
you for asking me to speak today.
    I graduated from Independence High School in 2007. I took 
classes with everyone else. In high school I volunteered, but 
wanted to work. I then went to work at sheltered workshop. I 
worked Monday through Friday from 8 to 3 and made $2.00 per 
hour. I worked there for 2 years.
    I hung up clothes and I didn't get to talk to the 
customers. I like to talk. I am a chatterbug.
    [Laughter.]
    Shoot. OK. Where was I?
    [Laughter.]
    After a bad day at the sheltered workshop in February 2009, 
I quit. I did not work for 6 months, and I was upset. I love to 
work with the help of my family.
    In just 10 months, I opened my own coffee shop and coffee 
company. I got a grant from voc rehab, and I had lots of help. 
WIPA helped make my business plan. It was hard work to open my 
business. I had to find a building for my espresso machine, a 
supplier of tables and chairs, even employees.
    I went to ice cream school to learn how to scoop ice cream. 
I went to barista school to learn how to make drinks. My 
favorite drink to make is hot chocolate.
    I made small changes to my barista machine to make it work 
for me. The cash register is right there. The cash register 
also has pictures on the top. The buttons also know what 
buttons so I know what to press when it rings up customers.
    Everything is one quarter or a dollar. A latte is $3.25 
drink. My coffee shop is making money, right?
    [Applause.]
    I have a job coach that helps me, and I have six employees. 
I employ people with and without disabilities and pay $7.25 per 
hour. I make drinks, run the cash register, and clean tables. I 
do dishes, and I talk to customers, and I know what they drink.
    [Laughter.]
    I sponsor my own Special Olympics. In October, I moved into 
my own home.
    I love my coffee shop. I am the boss.
    [Laughter.]
    [Applause.]
    Everyone should work. Thank you.
    [The prepared statement of Ms. Hillman follows:]
                  Prepared Statement of Emilea Hillman
    Good morning, my name is Emilea Hillman and I am the owner of Em's 
Coffee Co. in Independence, IA. Thank you for asking me to speak today.
    Before I get into the details, I would like you to know I am a 
young business owner, with a great work ethic. I am 24 years old and 
when I was born many doctors told my mom I would not walk, talk or even 
feed myself--let alone become an entrepreneur. I was born with Agenesis 
of the Corpus Collosum. What this means, is that my corpus collosum is 
absent. The corpus collosum is the connective tissue of nerve fibers 
that connects the right and left side of the brain. My corpus collosum 
is gone; therefore each side of my brain works independently. Some 
things that require both sides of your brain to communicate are riding 
a bike, driving a car and even tying your shoes. I still learn things 
like everyone else; it just takes my brain a little bit longer.
    I graduated from Independence High School in 2007. Throughout high 
school I participated in special education and was mainstreamed in 
class as much as possible; mainly for gym and choir. I started 
participating in Educational Based Career Education as a freshman where 
I gained experience at the local businesses such as Dairy Queen, the 
local nursing home and childcare facilities. I started earlier than 
most because my mom pushed the system. I would have liked to work while 
in high school or participate in internships, but those opportunities 
were not available.
    After graduating from high school in May 2007, I went to work in a 
sheltered workshop, as that was the only option available after 
graduation. In Independence, there were little to no supported 
employment programs that could provide me opportunities to find 
competitive employment in the community. Individuals who experience 
disabilities were and still are expected to work at the segregated 
workshop in Independence. I worked at the workshop Monday through 
Friday 8 a.m.-3 p.m. hanging clothes. At the workshop I made around 
$2.50 per hour. After nearly 2 years of working in segregated 
employment, I had a really bad day at work in February 2009 and chose 
to quit--the workshop was no longer meeting my expectations. Though I 
made a lot of friends at the workshop, I did not build skills that 
would prepare me for working in the community. For example, I did not 
learn how to interact with customers. Instead, I was to work in the 
back room away from the customers.
    After I quit at the sheltered workshop, I was unemployed for nearly 
6 months while my family and I thought about employment opportunities 
for me. I decided I would start a coffee shop. Independence needed a 
coffee shop that would be welcoming to community meetings and sell a 
great cup of espresso. I knew I would like owning a coffee shop because 
I would be able to work with customers every day, whereas at the 
workshop I was not allowed to work with customers. I love working with 
people and the community on a daily basis. I'm a bit of a social 
butterfly.
    It was difficult to start my own business as a lot went into it. 
There were some people that didn't think I could do it. I needed 
support to make it happen. I developed a business plan for my coffee 
shop with the support of my mom and Iowa Vocational Rehabilitation 
Services (IVRS). I then used my business plan to apply for grants 
through IVRS and the U.S. Department of Agriculture. I worked very 
closely with my local Work Incentive Planning and Assistance program 
(WIPA). WIPA was essential in supporting me to understand how I could 
own my own business and not lose my benefits. During the development 
period, I worked with my job coach to recover chairs we would use once 
the coffee shop opened, studied espresso drinks and researched 
pastries. My job coach also supported me in attending Barista School in 
Minnesota where I learned how to make espresso drinks. There we 
developed small accommodations for my espresso machine that would 
assist me in making drinks for future customers. Bottom line, I did 
everything anyone else would to open up their own coffee shop. After 
months of research, hard work and development, in December 2009, I 
opened up my business, Em's Coffee Co.
    I currently employ six people at my coffee shop and I am an equal 
opportunity employer. I hire people with and without disabilities and 
pay at minimum wage. Em's Coffee Co. also sponsors our own Special 
Olympics team--we have a great group! I utilize Iowa's Consumer Choices 
Option (CCO) program, where I am able to cash in my Medicaid Waiver 
dollars and hire my own staff. I pay my job coaches through the CCO 
program. This allows me to choose my own staff. This has been very 
successful for me. Financially my coffee shop is doing well this year. 
I'm making a profit and projected to have a stable income in the future 
and become less reliant on benefits such as Supplemental Security 
Income. This has been an exciting year for me as I am becoming more 
independent in running my coffee shop every day, and in October, I will 
be celebrating 1 year in my own home.
    It is hard for anyone to own their own business. I have my mom to 
support me with my business financials, my grandma is the head baker 
and I have great employees that work for me. I work at my coffee shop 
Monday through Friday from 6:30-2. Em's Coffee Co is open Monday 
through Friday from 8:30-5 and Saturdays from 7 o'clock-2. We sell 
specialty drinks, ice cream, Panini sandwiches and fresh baked goods.
    I love my coffee shop and owning my own business. I know my 
customers by name and I know what they drink. I also have had the 
opportunity to present at multiple conferences throughout the country 
to share my story with others. I am a well-known member of the 
Independence Chamber of Commerce and a respected business owner in 
Independence. I assure you, everyone can work.
    Thank you for your time.

    [Applause.]
    The Chairman. That was great.
    Ms. Hillman. So here I have my pictures. Hang on, hang on. 
I'll stretch.
    These are my flash cards. I did my grant cards on the top. 
That's cash register, my espresso machine. Those are the orange 
dots, and I think they help me. And on the bottom, over one, 
right there, that is a movie machine to make me one half, and 
on the bottom is espresso machine, decaf and the regular, and 
that one is my espresso machine, a small one, and two buttons 
are a big one.
    Ms. Lantz. Em makes small accommodations to be able to run 
the espresso machine.
    The Chairman. You did that yourself? You modified it.
    Ms. Lantz. Yes, she did.
    Ms. Hillman. Turn the other page. OK. Over there I steam 
milk, and Glen, my customer, he got me black and white chairs 
and a red couch.
    Ms. Lantz. She has a friend that works in the furniture 
store who helped her buy the furniture at cost so she could buy 
it cheaper.
    Ms. Hillman. And on the bottom is Mary Butler.
    Ms. Lantz. That's one of her job coaches.
    Ms. Hillman. Mom, I can't see.
    And then over there I clean tables.
    You have to turn. I can't see it. You read it. I can't.
    Ms. Lantz. ``May all who enter as guests leave as 
friends,'' and our mom coined the line, ``If you start with a 
second-hand business, you also treat people with disabilities 
as second-class citizens.''
    Ms. Hillman. Any questions?
    The Chairman. Well, I don't know.
    [Applause.]
    I'm glad you showed that picture of you steaming milk 
because I like latte. So when I come there, you've got to make 
me a latte, OK?
    Ms. Hillman. Any questions?
    [Laughter.]
    The Chairman. Em, we might do it, but I'm going to have two 
other people speak, and then we'll come back. OK?
    Ms. Hillman. All right.
    The Chairman. OK. Now we're going to turn to Nate Trainor, 
a young adult with a disability who lives in Waverly, IA. His 
testimony focuses on the difference between the traditional 
expectations for young people with severe disabilities and his 
own life.
    He lists the traditional aspects of a young disabled 
person's life as ``segregated school, day program, group home, 
limited choice and control.'' By contrast, Trainor attended an 
inclusive school, went on to attend college, works and 
volunteers in the community, lives in a duplex with two friends 
his own age. He also hires his own staff, which gives him 
control over his own personal care. Trainor's testimony also 
mentions the positive impact that the Consumer Choice Option 
has had on his life.
    I'm told he uses augmented communication to speak and ask 
that his testimony be presented as a PowerPoint, and then he 
can respond to questions. Nate is being assisted by his friend. 
Is it Vanessa?
    Ms. Symmonds. Vanessa.
    The Chairman. Vanessa.
    Nate volunteers for Vanessa's classroom, I'm told.
    Ms. Symmonds. Yes. I teach 5th grade.
    The Chairman. All right. Nate, please proceed.

             STATEMENT OF NATE TRAINOR, WAVERLY, IA

    Ms. Symmonds. This is Nate Trainor, and everything on this 
PowerPoint are all his words. He communicates with this 
facilitative communication board, and I'm just going to read it 
on his behalf.
    His shirt said, ``You're not the boss of me.''
    [Laughter.]
    ``I live in my own duplex. I live with awesome friends, 
free from dear mom.''
    [Laughter.]
    ``We are friends. We go places, rent movies, have a beer, 
and they treat me as an easy friend.''
    ``I am very awesome and busy. I work at the W, volunteer at 
a school and church, present, go to stores, exercise, and see 
lots of people. I like to eat at restaurants, read easy books 
on disability and FC, swim in my pool, fast go-carts, and ride 
in my `feel-free' convertible.''
    Mr. Imperato. What's FC?
    The Chairman. What is FC?
    Ms. Symmonds. FC is facilitated communication. That's how 
he types and how he communicates, just this keyboard.
    The Chairman. What's the W? The Y?
    Ms. Symmonds. Yes, the Y at Warwick College.
    The Chairman. Oh, OK. Got it.
    Ms. Symmonds. ``I like adventure. Sea World is my best 
vacation. Mom lets me choose my destinations.''
    There at the bottom he's swimming with dolphins at Sea 
World.
    ``I want people to know my body movements are hard. The 
reason, I don't know. I have to tell my feet to move, and then 
they will. Yelling at me doesn't make them move any faster. I 
also don't look directly at things, but I still see them. 
Saying that I'm not looking is an incompetent thing to tell 
me.''
    ``My voice is trapped deep down inside. It wants me to come 
out in words, but it is also only noise. I can control it, but 
it's very hard. Putting your hand over my mouth and telling me 
to be quiet doesn't help at all. But bribing me with chocolates 
might.''
    [Laughter.]
    ``One more thing. My ears work fine. They are not deaf just 
because I can't talk. I laugh when people raise their voice to 
talk to me.''
    ``My hands are twisted and they are able to go forward but 
not backward. I need a facilitator to help. I think I could 
play piano.''
    On the left is traditional, and on the right is what Nate 
did. Segregated school; he went to an inclusive school. A day 
program; he went to a college. Another day program; he had a 
job. Another day program; he volunteered. A group home; and he 
lives in a duplex with roommates. Staff provided; he hires his 
own staff. Limited communication; he has supported typing. 
Limited choice and control; he has more choice and control.
    ``Consumer Choice Options is an awesome program. When I get 
to be included doing fun things with my friends, the respect I 
feel is awesome.''
    ``I believe no one wants to be a project. This is a sad 
best friend reason. Everyone wants easy friends. Real friends 
take the time to get to know someone. True friends are not 
fearful of me. People try to be respectful but sometimes fear 
the unknown.''
    ``Don't waste your dreams. Treat them with respect. 
Communication is an awesome way to establish your dreams.''
    And here is his quote.

          ``Freedom is respect, and this can only happen when 
        people weigh the consequences away from themselves long 
        enough to take the time to see I am here.''--Nate 
        Trainor.

    [Applause.]
    [The prepared (powerpoint) statement of Mr. Trainor 
follows:]
           Prepared (PowerPoint) Statement of Nathan Trainor
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Pretty awesome.
    Ms. Symmonds. Thank you.
    The Chairman. Thank you very much, Nate. We'll get back to 
you with some questions maybe.
    Next we have Alex Watters. He focuses on his 
accomplishments, as well as the challenges he has faced as a 
young adult with an acquired disability. Mr. Watters became a 
quadriplegic after a diving accident in Lake Okoboji in 2004. 
Since his accident, Alex has graduated summa cum laude from 
Morningside College, with a major in political science and a 
minor in global history. He earned a Master's degree in 
negotiation and dispute resolution from Creighton University in 
Omaha. However, he has had difficulty finding employment in 
spite of his skills and qualifications. He was recently hired 
to a full-time job with Organizing for America here in Iowa.
    Watters concludes his testimony with a discussion of the 
current challenges to people with disabilities seeking to live 
independently. The one thing that I read about in his testimony 
is that he found it difficult to move from one State to another 
in terms of retaining necessary services and supports because 
of the differences in States.
    Alex, welcome. Your statement will be made a part of the 
record, and please proceed.

             STATEMENT OF ALEX WATTERS, MILFORD, IA

    Mr. Watters. Thank you very much, Mr. Senator. I don't know 
how I'm going to follow those two. I didn't bring a lovely 
assistant or a PowerPoint.
    [Laughter.]
    I'm kind of sweating up here.
    [Laughter.]
    But I thank you very much for this opportunity to be here 
to speak today.
    If you had met me 8 years ago, you would have thought I was 
one of the most active high school seniors that you'd ever met. 
I participated in the debate team and was captain of the golf 
team. During the summer I held down two jobs and enjoyed wake 
boarding with my friends and spending time on the water.
    I was excited to begin college. I was on a golf scholarship 
to play at Morningside College, where I had hoped to study 
business and eventually own my own golf course as a teaching 
pro.
    Two weeks into my freshman year I returned home to Okoboji 
with a couple of friends that I had met at Morningside for a 
family reunion that they were attending. After we spent some 
time around the campfire, we decided we wanted to go swimming 
one last time before the weather turned colder.
    Once I had walked out on the dock approximately 150 paces, 
a gust of wind blew my hat off into the water. Thinking I was 
far enough from shore, I dove in, hoping to retrieve it. I 
would find out later that the water was only 18 inches deep. My 
head struck the bottom and my neck simply snapped.
    I was life-flighted back to Sioux City, where I would have 
surgery to stabilize my neck. I went to Craig Hospital in 
Denver for rehabilitation over the next 6 months, dealing with 
everything from pressure sores to more surgeries and learning 
to identify myself as a quadriplegic.
    Although my stature has changed, my drive and passion to be 
involved and active has not. Upon returning home from rehab, I 
knew I was not going to let this injury become what defined me. 
I wanted to go back to school, and the sooner, the better. I 
returned home in April 2005, and by May I was signed up for 
classes, both for the summer and the fall.
    In August I returned to Morningside College, where I had 
hoped to continue studying business and possibly continue 
pursuing the dream of owning my own golf course. However, after 
a few courses I realized that my heart was no longer set on 
that dream. I knew that I needed to do more, something that I 
felt would impact society in some way.
    Once I took a political science course in college, I was 
hooked. I went on to serve as the student advocate of my 
college, president of the Morningside Democrats, and vice 
president of my fraternity, Delta Sigma Phi. In addition to the 
many exciting events I was a part of, I also managed to 
graduate in 4 years, as Senator Harkin said, summa cum laude, 
with a major in political science and a minor in global 
history.
    After graduating, I decided to pursue a Master's degree in 
negotiation and dispute resolution from Creighton University in 
Omaha, NE. After receiving my Master's degree, I felt confident 
but at a loss for what the next step would be. I then learned 
of an internship with the American Association of People with 
Disabilities in Washington, DC. I immediately applied and was 
selected as an intern for them for the summer of 2011.
    That summer was amazing. The experiences I had and the 
people I met were truly life-changing. I was working with the 
U.S. Department of Education, as well as the AAPD. I was able 
to meet a vast array of inspiring and very motivating 
individuals.
    Following the internship, I struggled to find full-time 
employment. My dreams of staying in Washington, DC quickly 
faded. I ended up moving home, where I helped my former coach 
with our local debate team. I was also able to continue 
traveling around the State, speaking to groups of young people 
about pursuing their dreams.
    However, although I applied for what seems like countless 
work opportunities, I couldn't seem to land a job. I don't know 
if it was some type of discrimination or a tight labor market, 
but it was very frustrating. I was finally contacted by a 
member of Organizing for America, the President's grassroots 
team here in Iowa, and after having job opportunities that felt 
like a correct fit fall through, I was hesitant to put my faith 
in this opportunity.
    However, as luck would have it, I ended up landing the job 
and work there today. I cannot begin to tell you how inspired I 
am by our President, so fighting for his reelection is 
something that I'm proud to do.
    I couldn't have gotten where I am today without a lot of 
support from wonderful people. I'm grateful to my family. My 
mother was able to be here with me today. I'm grateful to those 
people in my life, my vocational rehabilitation counselor, and 
the many professors and advisors that have inspired me and 
encouraged me to reach for my dreams. I am also thankful for 
those who had set things in motion long before I became a 
member of the disability community. I am grateful to you, 
Senator Harkin, for your hard work on the Americans with 
Disabilities Act that made school and work opportunities 
accessible to me.
    And while it is not my intention to run down the list of my 
accomplishments since my injury, I believe it should be seen as 
a testament of how a piece of legislation can truly enable 
individuals to spread their wings when given the same 
opportunities that others take for granted. However, we can do 
better. While I feel there have been many successes in the 
system along my journey, there have also been frustrations that 
must be addressed.
    One of the greatest struggles that I had in my transition 
to graduate school was my transition to graduate school. You 
see, I live on the border of Iowa and wanted to attend an 
esteemed college in Omaha, NE. Looking at the difficulty I had 
while moving to Nebraska, you would have thought that Iowa and 
Nebraska were two separate countries rather than bordering 
States.
    In order for me to live in Omaha, I needed to cancel all of 
the services I was receiving in Iowa and open an account in 
Nebraska. Once I did that, I was able to receive care in 
Nebraska, but I was not able to easily return home to visit my 
family due to the lack of care in Iowa.
    While I understand and respect that State programs are 
their own, I feel that we must begin functioning as a United 
States of America, thus allowing individuals with disabilities 
to freely travel and receive education wherever they so desire 
without paying the price of being unable to return home from 
time to time.
    Also while in graduate school, I realized just how 
inadequate public transportation can be. Throughout my 
practicum, I relied heavily on my boss to pick me up from work 
daily so that I could complete my degree. Omaha's paratransit 
system explained to me that I was out of their range as far as 
ADA-required transportation. And although I recognize that 
Omaha is a growing and expansive city, there must be better 
options for individuals with disabilities who are attempting to 
be a productive part of society by joining the workforce. If 
they have the passion and the ability to land a job, the very 
least we can do is make sure that we can give them a ride to 
get there.
    Another thing that is a great challenge for disabled 
individuals is access to adequate care. One of the things that 
the Americans with Disabilities Act and the independent living 
movement fought to ensure was that individuals would not have 
to be institutionalized solely because they have a disability. 
However, adequate care in more rural areas continues to be a 
problem to this day. It wasn't until I moved back to Okoboji 
following my internship last summer that I realized just how 
trying it can be to find day to day care. My family was able to 
fill in where the care agency was not, but this is not the case 
for all people with disabilities, some of whom have to support 
families of their own. A single mom that I know in the area was 
forced not only to deal with her new injury as a quadriplegic, 
but also worrying about trying to raise a child without 
reliable in-home care.
    Finally, we need to do better by our individuals with 
disabilities as far as jobs are concerned. Although I recognize 
that we have come a great way with the introduction of 
reasonable accommodations, meaningful employment continues to 
be scarce for individuals with disabilities. A talent pool is 
simply stagnant due to the overwhelming obstacles in their way, 
and I must say it's very inspiring listening to Mr. Mitchell 
and Mr. Shults today and hearing about programs setting these 
in place.
    Eight years ago, I had hopes of being a professional 
golfer. However, since that time, my plans and hopes for the 
future have continually changed. I have, as I find it ever so 
important, continued pushing forward. I think it is difficult 
for anyone to try to shift their career focus, but for 
individuals with disabilities, it can be very troubling. It was 
not as if I simply put away my golf clubs and learned a new 
trade. It was my attempt to find out what I could do in the 
workplace, combined with what I enjoy doing.
    However, since I began my internships and more recently my 
job, I have noticed just how many challenges I have simply in 
performing my daily tasks. These are things that individuals of 
a similar age without a disability may never think of. Everyday 
tasks such as picking up my papers from the printer or filling 
out a form can be a great struggle with me. And also with the 
lack of adaptive technology within the workplace, or even doors 
not being wide enough to get through, can keep me from being 
successful in my workplace.
    The good news is that I believe we're starting to see a 
shift in the consciousness of the public, as well as employers 
surrounding those with disabilities. My current employer has 
made sure that there's an open line of communication for all of 
my accommodations and my needs as an employee. For that, I am 
grateful and hopeful, hopeful that this job can simply act as a 
stepping stone, and perhaps someday I may even have the 
opportunity of representing the great people of Iowa.
    [The prepared statement of Mr. Watters follows:]
                   Prepared Statement of Alex Watters
    Good morning, my name is Alex Watters and I am very happy to have 
this opportunity to be here speaking before all of you today.
    If you had met me 8 years ago you would've thought that I was one 
of the most active seniors in high school that you ever met. In fact, 
my mom often joked that she rarely if ever saw me. I was very active on 
both the debate team as well as captain of the golf team my junior and 
senior year. Growing up in the beautiful resort area of Okoboji, during 
the summer I held down two jobs and managed to have some fun wake 
boarding with my friends and spending time on the water.
    In 2004 I was anxious to begin my adventure of going to College, I 
was on a golf scholarship to play at Morningside College where I had 
hoped to study business and eventually own my own golf course as a 
teaching pro. However, 2 weeks into my freshman year I returned home to 
Okoboji with a couple of friends that I had met at Morningside for a 
family reunion that they were attending. After we had spent time around 
the campfire, we decided that we wanted to go swimming one last time 
before the weather turned colder. While the girls were in changing, I 
went out onto the dock with the little brother. Once we had walked out 
on the dock approximately 150 paces, a gust of wind took the hat right 
off my head and blew it into the water. Thinking that I was next to a 
boat hoist and far from shore, I simply slipped off my T-shirt and dove 
in, hoping to retrieve it.
    I would find out later that the water was only 18 inches deep. At 
the time I was approximately 6'1'', 210 pounds and my neck simply 
snapped.
    I was life-flighted back to Sioux City where I would have surgery 
to stabilize my neck. I would later go to Craig Hospital in Denver for 
rehabilitation over the next 6 months, dealing with everything from 
pressure sores, more surgeries and learning to identify myself as a 
quadriplegic.
    Although my stature has changed, my drive and passion to be 
involved and active has not. Upon returning home from rehab, I knew 
that I was not going to let this injury become what defined me. I knew 
that I wanted to go back to school, the sooner the better! To that end, 
after returning home in April 2005, by that May I was signed up for 
classes both for the summer and the fall.
    In August I returned to Morningside College where I had hoped to 
continue studying business and possibly continue to pursue the dream of 
owning my own golf course. However, after a few courses I realized that 
my heart was no longer set on that dream. I knew that I needed to do 
more, something that I felt would impact society in some way.
    In high school I had always loved being in debate and my senior 
year I had actually been selected as a page in the Iowa House of 
Representatives, so once I took a political science course in college I 
was hooked. Throughout college I was involved in many different 
activities and on many different boards, some of which may even 
coincide with your college experience, Senator Harkin. I served as the 
student advocate of my college, president of the Morningside Democrats 
as well as vice president for two terms within my fraternity Delta 
Sigma Phi. In addition to the many events and activities I was a part 
of, I managed to graduate in 4 years summa cum laude with a major in 
political science and minoring in global history.
    However, nearing graduation I still had no idea what I wanted to do 
for a career. In fact when individuals would ask me what I wanted to do 
after college, my mantra continually seemed to be ``change the world''. 
I simply hoped that by the time I graduated I would know how I was 
going to make that happen and exactly what those changes would 
encompass.
    Having studied political science and global history over the last 4 
years, to say that I was appalled by bloodshed, war and the lack of 
good communication would be an understatement. One day while reading my 
textbook I stumbled across a Masters program that intrigued me. I began 
looking for programs near me and 2 years later graduated with my 
masters in negotiation and dispute resolution from Creighton University 
in Omaha, NE.
    After receiving my masters I felt confident, but at a loss for what 
the next step would be. It wasn't until I reached out to a colleague 
from a previous internship during my undergraduate days that I learned 
of an internship with the American Association of People with 
Disabilities. I immediately applied and later found out that I had been 
selected for an internship with them in Washington, DC for the summer 
of 2011. To say that summer was amazing would, again, be a huge 
understatement. The experiences I had and the people I met were life 
changing! Working with the U.S. Department of Education, as well as the 
AAPD, I was able to meet a vast array of inspiring and motivating 
individuals.
    Following the internship I struggled to find full-time employment. 
My dreams of staying in Washington, DC quickly faded. I ended up moving 
home where I helped my former coach with our local debate team. I was 
also able to continue traveling around the State speaking to groups of 
young people.
    After applying for what felt like countless job opportunities, I 
was contacted by a member of Organizing for America, the President's 
grass roots team here in Iowa. After having job opportunities that felt 
like the correct fit fall through, I was hesitant to put my faith in 
this opportunity. However, as luck would have it I landed the job and 
work there today. I cannot begin to tell you how inspired I am by our 
President, so fighting for his re-election is something that I am proud 
to do.
    I couldn't have gotten where I am today without a lot of support 
from wonderful people. First and foremost my family; they have always 
been there to inspire me, pat me on the back and push me when I needed 
it. The incredible caregivers that have helped make my day to day life 
possible--and also those advocates who set things in motion long before 
I became a member of the disability community. You, Senator Harkin, for 
your hard work on the Americans With Disabilities Act that made these 
opportunities accessible to me. My vocational rehabilitation counselor 
for giving me resources when I needed them and assisting me with the 
college process. The many professors and advisers that have inspired me 
and encouraged me to reach for my dreams.
    And while it is not my intention to run down the list of my 
accomplishments since my injury, I believe it should be seen as a 
testament to how a piece of legislation can truly enable individuals to 
spread their wings when given the same opportunities that others take 
for granted.
    However, we can do better!!!
    While I feel there have been many successes in the system along my 
journey, there have also been frustrations that must be addressed. One 
of the first great struggles that I had was my transition to graduate 
school.
    You see, I live on the border of Iowa and wanted to attend an 
esteemed college in Omaha, NE, you would have thought they were 
separate countries instead of bordering states.
    In order for me to live in Omaha and receive services there, I 
would need to cancel all of the services I was receiving in Iowa and 
open an account in Nebraska. Once I did that, I was able to receive 
care in Nebraska, but I was not able to easily return home to visit my 
family since I was no longer eligible for care in Iowa. While I 
understand and respect that the State programs are their own, I feel we 
must begin functioning as the United States of America and allow 
individuals with disabilities to freely travel and receive education 
wherever they so desire without paying the price of being unable to 
return home from time to time.
    Also while in graduate school, I realized just how inadequate 
public transportation can be. Throughout my practicum, I relied on my 
boss to come and pick me up for work daily so that I could complete my 
degree. I checked with Omaha's paratransit system and they explained to 
me that I was outside of the required area for them to provide 
transportation under the ADA. Although I recognize that Omaha is a 
growing and expansive city, there has to be better options for 
individuals with disabilities who want to be productive members of the 
workforce. If they have the passion and the ability to land a job, the 
very least we can do is make sure that they can get a ride there.
    Another great challenge for disabled individuals is access to 
adequate care. One of the goals of the Americans with Disabilities Act 
is to ensure that individuals will not be institutionalized solely 
because they have a disability; this was one of the priorities at the 
start of the independent living movement. However, adequate care in 
more rural areas continues to be a problem to this day. It wasn't until 
I moved back to Okoboji following my internship last summer that I 
realized just how trying it can be to find day to day care. While my 
family was able to fill in where the agency care was not, a single mom 
that I know in the area was forced not only to deal with her new injury 
as a quadriplegic, but also worry about trying to raise a child without 
reliable in home care.
    Finally, we need to do better by our individuals with disabilities 
as far as jobs are concerned. Although I recognize that we have made 
good progress with reasonable accommodations and equal employment, 
meaningful employment continues to be scarce for many individuals with 
disabilities. A talent pool is sitting stagnant due to the overwhelming 
obstacles in their way.
    Eight years ago I had hopes of being a professional golfer; 
however, since that time my plans and hopes for the future have 
continually changed. I have, as I find it to be ever so important, 
continued pushing forward. I think it is difficult for anyone to try to 
shift their career focus, but for individuals with disabilities it can 
be very troubling. It was not as if I simply put away my golf clubs and 
learned a new trade. It was my attempt to find out what I could do in 
the workplace, combined with what I enjoy doing.
    However, since I began my internships and more recently my job, I 
have noticed just how many challenges I have simply in performing my 
daily tasks. These are things an individual similar in age, without a 
disability, may never think of. Everyday tasks, such as picking up my 
papers from the printer, or filling out a form can be a great struggle 
for me. Also the lack of having adaptive technology within the 
workplace, or even doors that aren't wide enough for me to get through, 
can keep me from being successful in my workplace.
    The good news is that I believe we are starting to see a shift in 
the consciousness of the public, as well as employers, surrounding 
those disabilities. My current employer has made sure that there is an 
open line of communication for all of my accommodations and needs as an 
employee. For that I am grateful, and hopeful. Hopeful, that this job 
can simply act as a steppingstone, and perhaps someday I may even have 
the opportunity of representing the great people of Iowa.

    The Chairman. Very good.
    [Applause.]
    Thank you very much, Alex. You know, we have a quadriplegic 
who is a Congressman, Ron Langevin from----
    Mr. Imperato. Jim Langevin.
    The Chairman [continuing]. Or Jim Langevin from Rhode 
Island. He does a great job.
    You aren't after my job right now, are you?
    [Laughter.]
    Mr. Watters. I wasn't trying to push you out or anything.
    [Laughter.]
    I'm just ready to step in.
    [Laughter.]
    The Chairman. I think we met once before. We met last year 
sometime.
    Mr. Watters. We met during the summer when I was in 
Washington.
    The Chairman. That's right, that's right. I remember now. I 
tell you, you remind me a lot of my nephew.
    I shouldn't tell personal stories, but my nephew, a 
strapping, big kid like you, 19 years old, decided to go in the 
Navy. I was a Navy pilot. He wanted to serve on an aircraft 
carrier, which he did. Nineteen years old, big kid, my sister's 
boy. Nineteen years old, 1978, got sucked down the intake of a 
jet engine, broke his neck, became quadriplegic. They sent him 
back to California, the VA hospital there, and then went to 
Craig because he's from Colorado. That was 1978.
    If my brother Frank got me really interested in disability 
policy, it was my nephew who really propelled me into looking 
at the barriers that were out there, because he then wanted to 
go to school, couldn't get his wheelchair anywhere. We didn't 
have curb cuts in the 1980s. He went to Colorado State in Fort 
Collins, and it was just hard to even get--some classes he 
couldn't take because he couldn't get to the class. That was an 
eye-opener to me.
    And then he just persevered. Thank God for the Veterans 
Administration. They were wonderful. But, how old is Kelly now? 
He must be in his fifties, I guess. But he went on to start his 
own business, to live by himself all his life, got married, 
adopted a couple of kids. He's done incredible things, 
incredible things.
    He liked to boat, and he wanted to be independent. So he 
rigged up a device. He bought a boat, a motor boat, and he 
rigged up a crane, and he could get out there in his 
wheelchair, and he had this crane. He'd push these buttons and 
this thing would come down. It would get under his wheelchair 
and pick him up. It just took my breath away to watch him do 
this and set him in the boat. I thought, my God, what if this 
thing breaks? I'm just saying----
    Mr. Watters. My mom is cringing as you're telling this 
story.
    [Laughter.]
    My wheels are turning, she's cringing.
    [Laughter.]
    The Chairman. And every time I visit him, what he's done 
with his house and how he's made it--it's amazing.
    I'd just say that, you can have a great life, things are so 
different now in just accessibility and mobility and getting 
around and things like that. I know how he's lived his life, 
and I have no doubt that you're going to do whatever you want 
to do in life, Alex. So keep pushing ahead.
    Thank you all very, very, very much. These were great 
testimonies.
    The one question I have, Em, for you is, in your own words 
tell me what's the best thing about owning your own business? 
What do you like about owning your own business?
    Mr. Imperato. What's your favorite thing to do when you're 
at work? You like making hot chocolate. Anything else?
    Ms. Hillman. Yes, I do, because----
    The Chairman. Em, let me ask you this. Do you like going to 
work?
    Ms. Hillman. Yes.
    The Chairman. So you look forward to it?
    Ms. Hillman. I get up at 6, 6 o'clock every morning.
    [Laughter.]
    The Chairman. Every morning.
    Mr. Imperato. Do you drink coffee?
    Ms. Hillman. [Shakes head.]
    [Laughter.]
    But my sister does.
    [Laughter.]
    The Chairman. Well, Em, I have actually heard from people I 
know in Independence who say they love to go into your shop 
because you brighten their day, you just make people feel good. 
You always have a smile and, as one person said, you're a real 
personality.
    [Laughter.]
    I think that's good. But 6 o'clock every morning? Well, I 
don't know about that.
    [Laughter.]
    Nate, one of the things you said is you like living with 
roommates. So what do you like about that, living with 
roommates?
    [Pause.]
    Ms. Symmonds. Can we get back to it?
    The Chairman. OK, sure. Why don't I go to Ron? I wanted to 
ask Ron something. Go ahead and continue, Nate.
    I wanted to ask Ron, what do you think we can do to 
encourage other Iowa businesses to make a similar commitment to 
hiring people with disabilities? I have a sense that when I 
talk to business people, they'd like to do it but, well, 
they're afraid of a lot of things--bottom line, liability, 
this, that--legitimate worries that business people might have, 
and a lot of our small business owners, like Em, are just busy. 
I mean, they're busy all day. They're working at their 
businesses.
    How do we encourage and how do we bring people together on 
this in expanding these opportunities in businesses around 
Iowa?
    Mr. Frank. From what I've seen, part of it is fear. Part of 
it is fear, like you mentioned, of the unknown, the 
uncomfortableness, or they might look at it as a charity, and 
what can I do, how much time is it going to take out of my 
business to do this if they look at it as a charity.
    Working with vocational rehabilitation, I think, and 
getting with businesses and showing them some success stories, 
and making sure that the agencies have everything in line as 
far as what they can do for that business. If they're going to 
approach a business and they don't know what they're going to 
do or what job skills they're going to give this business, it's 
not going to work. So they have to have their ducks in a row, 
and they need to be organized, and they need to show, here, 
this is what we're going to do for you.
    They will see the benefit. I've seen the benefit for 5 
years, and it's very amazing.
    The Chairman. You also addressed yourself to the importance 
of what I was talking to David about, and that's getting kids 
in high school, getting them some summer jobs and work 
experiences and internships. You also spoke about the 
importance of that, too.
    Mr. Frank. Well, it gives them some confidence, and it 
gives them some skill sets that will help them get employed.
    The Chairman. I would just say this again for the record. 
I've said it many times. You think, with all the years I've 
worked in disability issues, you'd think I'd know it all, but I 
don't. So what really alarmed me, what really came home to me 
was when this event happened at Atalissa, at the turkey plant, 
and we found a lot of issues, but one thing was we found people 
with intellectual disabilities working right alongside people 
without disabilities, and they're getting paid $1 an hour or 
something, and the people without disabilities are getting paid 
$10 an hour, and they're doing the same work. I said, wait, 
this can't be right.
    Then we started looking at the whole issue of sheltered 
workshops. I kind of grew up in that era of sheltered 
workshops. And then it occurred to me that there are a lot of 
people working in sheltered workshops that go in there and they 
just are--that's it. They're just dead in there. They don't get 
any more skill sets. They aren't provoked to do different 
things.
    That's why we have worked, in the Workforce Investment Act 
reauthorization, which one of these days we'll get, to get more 
involvement for VR early, in high schools and stuff like that, 
to begin to move these young people into competitive 
employment, so that sheltered employment is not the first 
option but it would be the last. In other words, let's see what 
you can do in competitive employment.
    I've got to tell you, when I first brought this up and 
talked about it, people said, ``Well, you know, you're going to 
set up some of these kids to fail because they just can't do 
competitive employment.'' I said, ``Well, you know, I treat 
kids with disabilities just like I treat other kids.'' 
Sometimes you need to get a kick in the pants, you know? And 
people thought I was being harsh.
    I don't think I was being harsh. I'm just saying you've got 
to have high expectations, and we have to let them know we have 
high expectations of them. Then they get high expectations. 
Sure, is everyone going to succeed at a certain competitive 
employment? No, but that's life. We all fail at one thing or 
another. I didn't start out to be this in my lifetime either.
    But the idea being to prepare these young people for 
competitive, integrated employment, because we've seen it work. 
Will there be some who absolutely can't? Probably, but that 
shouldn't be the first option. The first option should be 
competitive, integrated employment, not at sub-standard wages 
either, but at full wages.
    So that's hopefully the direction we're moving in, and I 
take it that's where you want to see us go also, right?
    Let's see, I was going to come back to Vanessa and Nate.
    Ms. Symmonds. He says he gets to see his friends.
    The Chairman. What?
    Ms. Symmonds. He gets to see friends.
    The Chairman. You get to see your friends, yes, without 
being isolated.
    Mr. Imperato. Social networking.
    The Chairman. Yes, social networking.
    The Chairman. I wanted to ask Nate if he likes movies. 
Nate, do you like movies?
    While Nate is answering that, David or Richard, do you have 
anything to add that kind of comes to mind or anything like 
that? If not, that's fine.
    Anybody else over here?
    One of the things I also like to do at these hearings is, I 
would like to open it if anyone in the audience has anything 
that they want to say or add, or a question for one of the 
panelists, or for me. I'll try to do that, but I must tell you 
that this is an official hearing, so you have to tell us your 
name, and you have to spell it so our court reporter can get it 
accurately.
    Mr. Imperato. Tamara has the mic.
    The Chairman. Oh, Tamara has the mic. So we'll start here, 
then we'll go to this gentleman right back here.
    Yes?
    Ms. Clark. My name is Cherie Clark, C-h-e-r-i-e C-l-a-r-k.
    The Chairman. Got it.
    Ms. Clark. First let me thank you, Senator Harkin, for 
being here. And, Andy, thank you for coming back to be with 
Senator Harkin. We love AAPD, but we also love Senator Harkin. 
Thank you for coming back.
    [Laughter.]
    [Applause.]
    I also want to thank the panelists.
    But I have a question for the two panelists over here, and 
it's kind of a question for both of these gentlemen.
    David, you said that you wanted to eliminate the diagnosis. 
That wasn't your exact word, but that was kind of the intent 
that you were saying. And Richard, you said that you are big on 
peer support for people with mental illnesses.
    We know that peer support is very important for people with 
all kinds of disabilities, and there just hasn't been that 
emphasis on peer support for the broader disability community. 
And in order to have that broader emphasis, we cannot lose that 
identity of who we are as individuals with a disability. I'm 
just afraid that if you take away my CP as an employee, I'm not 
going to be able to connect with my peer here and there and 
wherever they are out there in the real world. For me, that's a 
concern.
    The Chairman. Richard or David?
    Mr. Mitchell. Thank you, Cherie. I think your work with 
advocacy and the listserv really helps the State of Iowa also. 
So I want to express acknowledgement of that, too.
    I made a comment to Mr. Shults as Nate was talking about 
his story about the importance of inclusion and integration, 
and I think it tied in very well with Rick's efforts talking 
about peer support.
    Our efforts, as I talked about the labeling, was to move 
away from the perceptions that labels cause to really look at 
the individual's abilities and interests and preferences, and 
certainly not to take away from any of the social networking 
and peer-support efforts that occur daily with that movement. 
So the effort is to look at individuals' abilities and 
preferences and skills and learning styles, and not let the 
disability drive that process.
    Mr. Shults. And from our perspective, we use a term in our 
office quite frequently where we talk about both/and, where you 
can get the combination, getting away from the stigma and 
getting away from the labels, but also have that kind of 
additional support. There isn't any reason why it has to be one 
way or the other. It can be both/and. The idea of expanding 
peer support--and one of the things I'm pleased to be able to 
do in Iowa is where we talk about mental health and disability 
services becoming an umbrella and being able to cover that 
whole span.
    The areas we're looking at is expanding peer support in 
other areas, and in particular one of the areas I'd like us to 
be working on is peer support for youth. That's another area 
where often getting peer support from an individual that's 36 
years old may be different from someone who is your own age. So 
those are the kinds of things that we need to be looking 
forward to.
    The Chairman. This gentleman back here. Oh, there was a 
gentleman over here that had a--oh, I'm sorry. Kim has that.
    Mr. Wright. Yes, my name is Adam Wright, W-r-i-g-h-t. I'm 
from Cedar Rapids here, and I do want to thank the panelists 
and the Senator for holding this hearing today.
    I've actually got two different questions.
    No. 1, I'm a person that's very active in the community who 
has a diagnosis of Asperger's. I just recently did an 
internship with Congressman Loebsack, and I'm going back to 
school to get my B.A. in political science in my thirties.
    My first question involves the PPACA, and it has to do with 
the fact that right now a lot of people with mild disabilities 
seek SSDI benefits due to the fact that they cannot get--for 
the Medicaid or the Medicare benefits that go along with that, 
to treat their disabilities. Will the PPACA allow more people 
with mild disabilities to enter the competitive workforce due 
to the fact that they will be able now to seek private health 
benefits to care for their disabilities?
    My second question has to do with we talk about folks with 
disabilities entering the workforce, but I hear very little 
conversation about sustaining that employment. I've often run 
into experiences where I have been able to get a job, but 
unfortunately it only lasts maybe 3 to 5 years for various 
reasons, issues with social skills, issues sometimes with 
understanding what the employer wants, and sometimes just 
realizing that maybe the employment that I sought was maybe not 
the right job due to my disability.
    What type of things are on the table to sustain employment 
for folks with disabilities?
    The Chairman. Here you're going to learn the secret of 
being a successful Senator. I have expert staff answer 
questions like that.
    [Laughter.]
    All right, Andrew.
    [Laughter.]
    Mr. Imperato. He actually knows a lot more than he pretends 
to.
    So the PPACA, in case people here don't know what that is, 
that is the full acronym for the Affordable Care Act. I think 
the full name is the Patient Protection and Affordable Care 
Act, but most people in Washington stopped calling it the 
PPACA. Some people call it Obamacare, some people call it the 
Affordable Care Act.
    I think it's a great question. Certainly, a lot of us in 
the disability policy world and the advocacy world are hopeful 
that when you get rid of pre-existing condition exclusions, 
when you get rid of lifetime caps on benefits, annual caps on 
benefits, that it becomes easier for people with disabilities 
that affect health care to get the kinds of services and 
support from the private health insurance industry that 
historically have been very difficult, if not impossible, to 
get and have forced people onto SSI and Medicaid, or SSDI and 
Medicare, but especially SSI and Medicaid in order to get those 
benefits.
    So I think it's a great question. Senator Harkin is really 
advocating that we have a robust benefits package so that the 
actual benefits that people get will meet their needs. That's 
still to be determined. A lot of that is getting worked out at 
the State level.
    Your other question was about--I think I understood it to 
be about keeping supports, long-term supports while you're 
working that can help you stay at work. That was something that 
we tried to address as part of the Workforce Investment Act 
that Senator Harkin mentioned.
    There are some limits in the current Vocational 
Rehabilitation Act which will cutoff your job coach when you 
hit a certain threshold. I think it's 24 months in some States. 
I don't know. Is that about right? Yes.
    So that's a mission question, right? Is it the mission of 
vocational rehabilitation to provide job coaches for longer 
than that for people that need it? Not everybody needs it, but 
for the people who need it. Is that a mission for Medicaid? Is 
that a mission for some other entity? I think we have to figure 
that out because there are people who need the services longer 
than the limits, and in the Rehab Act we lengthened that limit 
in our staff discussion of that, but it created a new limit, so 
it didn't completely solve the problem. But it's an important 
issue.
    The Chairman. Thank you, Andy.
    Yes?
    Ms. Hudson. Hi. I'm Jane Hudson, J-a-n-e H-u-d-s-o-n, and 
I'm the director of Disability Rights Iowa. I do have a 
question. As I'm attending all of these meetings, I'm hearing 
that getting a job, employment, is a barrier to getting out of 
institutions, and it really puzzles me why someone should be 
kept in an institution, like a State resource center or a 
mental health institute or a nursing facility, because they 
can't find a job.
    So what I would like to ask the panelists is, it's 
wonderful that you're living in your own homes and in the 
community. Would it be harder for you to find a job, for 
example, Alex, if you were in a nursing facility?
    Mr. Watters. I don't know if it would necessarily be harder 
for me to find a job, but I don't think I'd have the social 
life I do.
    [Laughter.]
    I think, like Nate, I have been fortunate enough to make 
wonderful friends and live with them. In graduate school I 
lived with a fraternity brother and his fiancee throughout 
graduate school, and I'm now living with one of my best friends 
in a home. But I think that, like Nate was mentioning and kind 
of focusing on, it's important that we either feel independent 
and have our own home, and along with that the opportunities to 
have gainful employment, not only because of that independence 
but also because of that peer-to-peer support that Mr. Shults 
was talking about.
    I think that they go hand in hand. I think that when you're 
living independently or you're with your peers, I think that 
you're more likely to find and strive for that gainful 
employment. I think it's kind of a motivating factor, if you 
will. I don't know if that answers your question.
    The Chairman. Thanks for mentioning Delta Sigma Phi. I 
appreciate that.
    [Laughter.]
    I was in Delta Sigma Phi at Iowa State. It was the first 
national fraternity to welcome kids with disabilities as 
fraternity members, so I've always been proud of that.
    [Applause.]
    Jane, by the way, thanks for all your leadership in 
Disability Rights for Iowa. Thank you very, very much.
    Yes, sir?
    Mr. Strong. Senator Harkin, ladies and gentlemen, my name 
is Frank Strong. It's F-r-a-n-k S-t-r-o-n-g. I'm from Des 
Moines, and I just wanted to share with you all. It's a 
question I have.
    Are you aware that we have a disability awareness lecture 
every October during National Disability Employment Awareness 
Month? And this year we are featuring Dr. Alan Hurwitz from 
Gallaudet University. He's going to be talking to us about 
deafness issues. We feel that it's very critically important 
that we talk to people not only in the disability community but 
in the community at large about being aware of folks with 
disabilities.
    And for folks, as Senator Harkin knows, folks that happen 
to be deaf are a part of the disability community that's not as 
visible as those of us who happen to be blind and carry white 
canes and those of us in wheelchairs, that use wheelchairs for 
mobility.
    So this is why we promote our international disability 
lecture every year. It's going to be on October 19. That's a 
Friday, and we scheduled that especially for Senator Harkin. So 
if he happens to be in the community, we'd like to invite him 
to be part of that.
    The Chairman. When is it again, Frank?
    Mr. Strong. It's Friday, October 19. It's going to be at 
the State capital building.
    One of the neat things about Dr. Hurwitz--and if you don't 
know about Gallaudet University, it's the quintessential 
university for deaf and hard-of-hearing people in the world. It 
happens to be in Washington, DC. It has a long history of 
advocacy for people with disabilities, starting with advocating 
for themselves, but it's still a great university.
    One of the greatest parts about his lecture or making that 
lecture is that he's not only a deaf person but he's also an 
Iowa person. So I'd like everybody to come down. We would love 
to see you come down to Des Moines to hear Dr. Hurwitz and 
learn more about deaf and hard-of-hearing issues.
    I just didn't know if you were aware of this or not, 
Senator Harkin and others.
    The Chairman. I am now.
    Mr. Strong. OK.
    The Chairman. And I'm going to try to be there.
    Yes, Alan grew up in Iowa. In fact, his father and my 
brother were in school together, the Iowa School for the Deaf.
    Thanks, Frank. That's October 19. OK, got it. I got it.
    Evelyne, are you next? Who is next over here? I'm sorry.
    Mr. McDermott. Good morning, Senator Harkin, and thank you. 
My name is Gary McDermott. I'm from Clinton. I'm a Vietnam 
veteran. I've been using a wheelchair for close to 40 years 
now, and I too went through the VA rehab system.
    One of the things I see that we are having difficulty with 
in employment for those of us that drive our own vehicles, and 
not only that but enjoying life in general, is obtaining 
refueling assistance with our vehicles.
    I know the ADA covers that section about refueling 
vehicles, but they are not listening to us, they are not paying 
attention to us. There are short little fixes, easy fixes to 
that, and sometimes I'd like to discuss that with you, if 
possible, and bring it to your attention. I see Andy nodding. 
He's probably aware of what I'm talking about.
    The Chairman. Yes, we've heard this quite a bit in the 
past.
    Mr. McDermott. I've been working on this issue for probably 
the last 3 to 4 years, and it's a nationwide problem.
    The Chairman. The problem, as you probably all know, is 
that when I was young, gas stations had attendants who would 
come out. Now they don't have those attendants. Everything is 
all self-serve.
    Mr. McDermott. It's all self-serve, but there are systems 
available where you can reach the interior people through a 
button and they come out and pump.
    The Chairman. That's right, that's right.
    Mr. McDermott. But we're having trouble getting the fuel 
stations to install that.
    The Chairman. Some stations do have it. They have both 
manually activated or voice activated systems.
    Mr. McDermott. The ones that they have are small buttons 
that are the size of a postage stamp on the pump, and you 
cannot reach them from your vehicle. So, therefore, you have to 
move your vehicle over, get out into the travel portion, go 
around, push the button, have somebody come out and help you. 
It's just not working. So we'd like to see some changes to 
that.
    The Chairman. Andy would you like to say something?
    Mr. Imperato. Just real quick. We're aware that that's an 
issue. I do a lot on Facebook, and I've seen a lot on Facebook 
on that recently.
    There's a company in Chicago called Inclusion Solutions 
that has developed a solution with bigger buttons. Have you 
checked out their technology? Does that work better from your 
perspective? OK. So I think maybe the best thing for us to do, 
and we can take this as homework, is followup with the Civil 
Rights Division, the Disability Rights Section of the Justice 
Department.
    This is about enforcing the ADA, and I think that the 
Justice Department could do a proactive technical assistance to 
the station owners. So we can take that back and advocate for 
that. We have a strong assistant attorney general for civil 
rights who just testified in front of us on the Olmstead 
anniversary. His name is Tom Perez, and he's got a strong 
counsel who just testified with Senator Harkin in support of 
the U.N. Convention named Eve Hill. So we'll followup with 
them.
    Mr. McDermott. OK. Hy-Vee Stores, who is based in Iowa, has 
placed that particular button in 110 stores. It's been very 
successful, and they love it, and so do the people with 
disabilities love it. So if you could do that, we'd be very 
pleased.
    The Chairman. I asked Nate if he liked going to movies. I 
want to get back. Did I ever get a response? Oh, Avatar.
    Nate, you like science fiction. So do I.
    I'll ask Nate another question as we go around. Is that 
what you like best, science fiction movies? Or do you like 
westerns, or romance?
    [Laughter.]
    I just wondered what you like the best, Nate. OK? We'll go 
around.
    Evelyne Villines.
    Ms. Villines. Yes, I am Evelyne Villines. That's spelled E-
v-e-l-y-n-e, V as in village, i-l-l-i-n-e-s, and I'm from Des 
Moines, and I'm delighted to be here today.
    I know when they hand me a microphone it scares everybody 
to death because they think I'm going to make another speech, 
and they're right.
    [Laughter.]
    I just wanted to say I wanted to reminisce just a moment 
about what it was like to be on the lawn of the White House 
when we saw and had the opportunity to witness the signing of 
the Americans with Disabilities Act.
    There was a time when none of us ever thought it was going 
to happen, and many of us had worked so hard. And to see people 
sitting in wheelchairs and on stretchers and people on crutches 
and people who were blind and people who were deaf, and to see 
many of them with tears streaming down their eyes, and when 
they played the Stars and Stripes Forever, I don't think I've 
ever felt so American.
    And I think, Tom, that this--pardon me, Senator.
    The Chairman. No. Come on.
    [Laughter.]
    Ms. Villines. I think this is what you can carry in your 
heart, that today we are meeting on this wonderful day to talk 
about where do we go from here. You have been this magnificent 
figure for us, and I think it's the same as when you came to 
our congressional hearing, our congressional reception. People 
started crying. That's who your Senator is, and that's what he 
is, and I think for all of us, we have to be so very grateful.
    You may applaud now, and then I have something else to say.
    [Laughter.]
    [Applause.]
    I'm here today representing the AbilityOne Program and 
NISH, and I just wanted to, at this time--the way you treat 
your staff, Tom, I wanted to just remark to this guy over here, 
Andy, what a magnificent presentation you made for our 
audience, and how I heard you quoted several times after you 
left. So I thank you for that.
    The other thing I want to mention is that NISH, one of our 
initiatives is called Pathways to Careers. It's a collaboration 
between local non-profit agencies and school districts that 
establishes career exploration, including internships for 
students with significant disabilities. We are piloting the 
program in Utah. That didn't please me entirely, but they 
didn't ask me about it either.
    We have come a long way. But sitting here today and 
listening to our young panel, I just thought how lucky you are 
for the opportunities that are out there for you, that you can 
build your life, and thank goodness somebody started talking 
about the social part of living with a disability. That is so 
important that you are accepted, that you have fun, that you 
have places to go, that people respect you. If I hadn't had 
that kind of social opportunity as a young girl, I'd never be 
sitting here with my daughter today, who is my chief caregiver 
now. So there are a lot of things that can happen when all of 
us work together.
    Thank you for being here, and we look forward to seeing you 
in Washington before too long.
    The Chairman. Always, Evelyne, always. Thank you very much, 
Evelyne. Thank you.
    [Applause.]
    I just want to say, Evelyne Villines has spoken in every 
State in this Nation, and I believe, has been an inspiration 
for so many people around the United States, and has hauled 
that chair of hers--I bet the miles would go from here to the 
moon and back three or four times, Evelyne.
    But it's just been a wonderful inspiration. I thank you for 
your lifetime of work. You were there at the beginning, and 
you've never given up, and you've always fought so hard for 
making life better and making sure we have full inclusion, 
especially for the severely handicapped. That's been your focus 
and that's been your driving focus for so long, and I just 
can't thank you enough for your great leadership. You've been 
an inspiration for me, too, for all these years. Thank you, 
Evelyne, thank you.
    [Applause.]
    Ms. Fisk. My name is Kay Fisk, K-a-y F-i-s-k, and I work 
for a non-profit neighborhood transportation service. One of 
the things that we haven't talked about much here today is 
transportation. Alex brought it up, and I was so glad to hear 
him say that. Richard, you mentioned it, too, when you were 
talking about Betty. You mentioned transportation.
    Transportation is such a vital thing for anyone who has a 
disability. There are not very many ways to get around if you 
don't have good transportation. We're concerned right now in 
our community because all of the other non-profit people here 
that I work with have people who are concerned about 
transportation needs being cut.
    One of the things that happened in our redesign in Iowa was 
that transportation was totally overlooked. I was at a meeting 
in Des Moines on Wednesday and Theresa Armstrong gave a very 
compelling presentation where she talked about the fact that 
transportation wasn't brought into the conversation, that at 
the end it was talked about but it was after everything had 
already been decided.
    This is something that we really need to look at. We really 
need to have transportation put at the forefront so that the 
people who have disabilities are not going to be 
disenfranchised. It's a grave, grave issue.
    The Chairman. Yes, it is, and we've been working on 
transportation issues for a long time. We had some great 
successes. We still have a long way to go.
    One issue that Andy and I have been working on now for, oh, 
a year or two, a couple of years or so--we're making progress. 
You know, buses are accessible, trains are accessible, 
airplanes are accessible. You can take your companion dog or 
seeing-eye dog. Things are pretty good there. But the one we 
haven't cracked yet is taxicabs. I know that doesn't seem like 
a big thing here, but we're trying to get every taxicab in 
America to be fully accessible.
    This was brought home to me a couple or 3 years ago. I went 
to London, and every taxicab in the city of London is fully 
accessible, every single one of them. In America, you have to 
call for one, and maybe a half-hour later or something it will 
show up.
    So we've been working with cities like New York and 
Washington, DC and places like that to really get this thing 
changed, because they're making them. I've seen examples of 
fully accessible taxicabs. It's the same thing, my friends. 
Whenever we design something to think that we're helping 
accessibility for a person with a disability, we find out it 
helps everybody. I mean, I always think of curb cuts. We always 
think of the curb cuts as being for people with wheelchairs. 
All of a sudden, mothers with strollers, elderly people using 
walkers, the same way with ramps.
    I said to Andy, I got this bill through for closed 
captioning to mandate that all TV sets have to have a chip in 
it that automatically decodes. That's a separate bill I got 
through in the 1990s. I got it because I wanted people who were 
deaf and hard of hearing to be able to know what was going on 
with closed captioning. Well, now I find that a lot of people 
are using it, especially in noisy environments like sports bars 
and things like that. They seem to like these things.
    Universal design. The more universal we make the designs, 
the better off it is for everybody. And I'll tell you what, you 
take one of these cabs that is fully accessible and put it next 
to one that's not, and just take someone without a disability 
and say which one do you want, I'll tell you which one they'll 
take. They're just better. They're easier to get in and out of. 
They have a little bit more room inside. They're more 
comfortable.
    But we just haven't quite gotten over that yet, but we're 
working on it, we're working on it. And to make sure that we 
have bus routes--Alex, you were talking about the route in 
Omaha. Well, the paratransit only has to go the same route as 
the normal buses. Well, that's got to be changed too, to make 
sure that if you don't happen to live on that bus route, you 
can still get the paratransit pickup and delivery at the same 
time.
    Well, I didn't mean to go off on that, but it is an issue 
that we've just got to keep on it all the time, just keep on it 
all the time.
    Mr. Imperato. Let me just say, I think we need to wrap up 
because I don't know--do we have the interpreters? We're OK? 
OK.
    The Chairman. I asked Nate if he liked science fiction 
movies or westerns. Did I get a response, Nate?
    Ms. Symmonds. He says funny movies are best, but he fears 
scary movies.
    The Chairman. What did he say?
    Mr. Imperato. Funny movies are best, but he fears scary 
movies.
    The Chairman. Ah, funny movies. I should ask him if he 
likes the Pink Panther series of Peter Sellers, but I'm dating 
myself.
    [Laughter.]
    The Chairman. Yes?
    Mr. Woodworth. Good morning, Senator Harkin. My name is Ben 
Woodworth, W-o-o-d-w-o-r-t-h, and I represent the Iowa 
Association of Community Providers.
    The Chairman. Yes?
    Mr. Woodworth. From our board of directors and our 140 
providers statewide representing 25,000 employees and 100,000 
Iowans with disabilities, we thank you for your support on 
these issues, and we continue to look forward to common-sense 
approaches both at the Federal and the State level to remove 
the barriers to community-based employment.
    Much as our providers answered the call in the 1970s, 1980s 
and 1990s for deinstitutionalization and community-based 
services, we look forward to working and partnering with both 
the Department of Human Services and the Iowa Vocational 
Rehabilitation Services to create policies and funding that 
make sense for individualized services so people can experience 
the outcomes we're looking for. We thank you for your 
leadership on the national level with that.
    The Chairman. Thank you very, very much. I appreciate that.
    One more?
    Ms. Reisinger. Hi, good morning. My name is Dolores 
Reisinger. It's good morning because we didn't have lunch yet.
    [Laughter.]
    The Chairman. What are you trying to tell me? Get out of 
here, Harkin?
    [Laughter.]
    Ms. Reisinger. I'm a retired teacher. I'm not looking for 
work. I live alone, and I don't want to--I don't have a 
caregiver. I'm a very independent person. I graduated with two 
Master's degrees from two different universities: one, the 
university in Sao Paolo, Brazil, with a Master's in history; 
and the second, the University of Northern Iowa with a Master's 
in Spanish, and I taught Spanish at Columbus High School in 
Waterloo. Then I went to work for the Iowa Department for the 
Blind as a vocational rehabilitation teacher for 19 years.
    I'm wondering why the Department representative from the 
Iowa Department for the Blind is not here today. I'm not 
representing them. I'm here on my own.
    I am also a member of the National Federation of the Blind, 
and my comment is that last year the Federation here in Iowa 
and other States demonstrated in front of the First Federal 
Building in Des Moines, and the problem is--I would like for 
you to comment and elaborate on this--when people are working 
in sheltered workshops, if they are ready for competitive 
employment but if they couldn't be placed in competitive 
employment right away, should they be paid minimum wages?
    I heard so much about sub-minimum wages. Why people who are 
in workshops who are capable to do their jobs are being paid 
sub-minimum wages? Thank you.
    The Chairman. Well, Andy, go ahead. And I have something to 
add.
    Mr. Imperato. I think it's important. Thanks for the 
question. I think it's important to recognize that Section 14C 
of the Fair Labor Standards Act, which is old and allows people 
with disabilities to be paid less than minimum wage, you're 
only allowed to do it if you have a certificate from the 
government that lets you do it, and the person that you're 
paying less than minimum wage is a person with a disability 
whose productivity is affected by their disability to the point 
where you can justify paying them less than minimum wage.
    A lot of people would argue that that's old and we don't 
need that anymore, but it seemed like in your question the 
people you were describing are people that would have had the 
same level of productivity as people without disabilities. So 
even under current law, they should not be paid less than 
minimum wage, and we certainly would not support paying anybody 
less than minimum wage who has the same level of productivity 
as any other worker.
    As Senator Harkin said before, we worked in the Workforce 
Investment Act to try to make sure that young people weren't 
being tracked into sub-minimum wage jobs in sheltered 
workshops, and we had a provision in there that required them 
to try competitive integrated employment before they would be 
eligible for anything else. That's an incremental step that we 
think will help change the trajectory in terms of sheltered 
workshops.
    As Evelyne described, there are a lot of providers that run 
sheltered workshops that also have other employment services 
and want to give people other choices. Our feeling is if you 
expose young people to alternatives, they will select 
alternatives, and the providers will follow the demand the way 
that Rick Shults talked about.
    The Chairman. Well, I think--wait. Nate, I asked Nate a 
question about Peter Sellers and Pink Panther.
    Ms. Symmonds. This is what Nate said. He said Pink Panther 
is for old guys.
    [Laughter.]
    [Applause.]
    The Chairman. Boy, I've been shot down before, but that's 
about the best I've ever been shot down.
    [Laughter.]
    That was very good. I should ask Nate if he's ever thought 
about writing. He's a great writer. That's very good. He's got 
good writing skills.
    Nate, you have good writing skills.
    Anybody else? Anybody else have anything to add before we 
get out of here to go for lunch? Anybody at all? Ron? Alex? 
Anything else?
    [No response.]
    Well, I was going to cut it off.
    Mr. Imperato. We need to for the interpreters.
    The Chairman. Oh, and for the interpreters, too.
    Well, listen, first of all, I'd like to thank all the 
witnesses for their testimony and insights and the progress 
we've made, but also the challenges that lie ahead here for the 
ADA generation. I'll keep using that phrase, the ADA 
generation. I appreciate all of you taking time from your busy 
schedules.
    To the young people here, I commend you all for your hard 
work and achievement. I encourage you to continue to follow 
your dreams and to dream big, and don't take ``no'' or ``can't 
do'' for an answer. You also set tremendous examples for other 
people, too.
    We'll leave the record open for 10 days to allow additional 
statements or supplements to be submitted for the record.
    Again, I can't thank you all enough. Let's celebrate the 
progress we've made on the ADA in 22 years, but let's not rest 
on our laurels. We've got a lot of other things we've got to do 
to really make the dream of the ADA a reality for everyone.
    Thank you very much for being here.
    [Applause.]
    [Whereupon, at 12:14 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
